                    OFFICE OF INSPECTOR GENERAL
          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                         Incurred Cost Audit of Grants Awarded
                                         to the
                        New Hampshire Commission on National
                                 and Community Service



                             OIG Audit Report Number 02-20
                                    April 12,2002


                                 Financial Schedules
                                          and
                             Independent Auditors' Report
                                    For the Period
                         November 1,1997 to December 3 1,2001




                                        Prepared by:

                                        KPMG LLP
                                    2001 M Street, N.W.
                                 Washington, D.C. 20036

                                Contract No. GS 23F 8 l27H
                                  Task Order No. 0 1-02


This report was issued to Corporation management on August 2, 2002. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than January 29, 2003, and complete its
corrective actions by August 2, 2003. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                 Office of Inspector General
                       Corporation for National and Community Service
                        Incurred Cost Audit of Grants Awarded to the
                 New Hampshire Commission on National and Community Service



                                                      Table of Contents

                                                                                                                  Paae

INDEPENDENT AUDITORS' REPORT.................................................

Summary .......................................................................................................

Report on the Schedules of Award Costs ......................................................

Schedules of Award Costs (Exhibits A - G)

     Exhibit A - Consolidated Schedule of Award Costs:
        AmeriCorps .......................................................................................

     Exhibit B - Schedule of Award Costs:
        Administrative Award .......................................................................

      Exhibit C - Schedule of Award Costs:
         Program Development and Training .................................................

      Exhibit D - Schedule of Award Costs:
         Martin Luther King Program.............................................................

      Exhibit E - Schedule of Award Costs:
         Governor's Innovative Award ...........................................................

      Exhibit F - Schedule of Award Costs:
         Promise Fellows ................................................................................

      Exhibit G - Schedule of Award Costs:
         State Disability Funds Grant Award .................................................

      Notes to Schedules of Award Costs ........................................................

Report on Internal Control over Financial Reporting ...................................
     Material Weaknesses
        Grants and Program Management.....................................................                         21
        Financial Management and Reporting ..............................................                          23

Report on Compliance...................................................................................            24

     AmeriCorps Grant

          A. Compliance Findings Resulting in Questioned Costs .................                                   25
          B . Other Compliance Findings.........................................................                   32

     Administrative. Program Development and Training (PDAT). Martin Luther King
     (MLK). Governor's Innovative. Promise Fellows. and Disability Awards

          C . Compliance Findings Resulting in Questioned Costs .................                                  41
          D . Other Compliance Findings ........................................................                   43

     Other Procedures .....................................................................................        47

Responsibilities

     Management's Responsibility .................................................................                 48
     Auditors' Responsibility .........................................................................            48
 . . .
Distribution....................................................................................................   49

Exhibits H- 1 through H-8 .Supplemental Schedules of Award Costs .AmeriCorps

          Exhibit H-1 .Schedule of Award Costs:
          Tri-County Community Action Program ..........................................

           Exhibit H-2 .Schedule of Award Costs:
           Student Conservation Association ....................................................

           Exhibit H-3 .Schedule of Award Costs:
           New Hampshire Commission Against Domestic
           and Sexual Violence..........................................................................

           Exhibit H-4 .Schedule of Award Costs:
           Community Action Belknap-Merrimack County ..............................

           Exhibit H-5 .Schedule of Award Costs (unaudited):
           Plus Time NH ....................................................................................

           Exhibit H-6 .    Schedule of Award Costs (unaudited):
           City Year ...........................................................................................
          Exhibit H-7 - Schedule of Award Costs (unaudited):
          New Hampshire Resource Conservation ...........................................

          Exhibit H-8 - Schedule of Award Costs (unaudited):
          North Country Resource Conservation and Development ................

Exhibits 1-1 and 1-2 - Supplemental Schedules of Award Costs - Administrative

          Exhibit I- 1 - Schedule of Award Costs:
          Volunteer NH !...................................................................................

          Exhibit 1-2 - Schedule of Award Costs:
          Job Training Council .........................................................................

Exhibits J-1 and J--2- Supplemental Schedules of Award Costs - PDAT

          Exhibit J-1 - Schedule of Award Costs:
          Volunteer :NH!...................................................................................

          Exhibit 5-2. - Schedule of Award Costs:
          Job Training Council. ........................................................................

Exhibits K-1 and K-2 - Supplemental Schedules of Award Costs - Promise Fellows

          Exhibit K-1 - Schedule of Award Costs (unaudited):
          Volunteer :NH!...................................................................................

          Exhibit K-2 - Schedule of Award Costs:
          Job Training Council .........................................................................

Exhibit L - Follow-up on Pre-Audit Survey Report Findings and
Recommendations .........................................................................................

APPENDICES

Responses to Report

     Volunteer NH! ............................................................................................Appendix A
     State of New Hampshire, Office of the Governor......................................Appendix B
     Corporation for National and Community Service ....................................Appendix C
             2001 M Street, N.W
             Washington. DC 20036




                                             Independent Auditors' Report



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP performed an incurred cost audit of the costs claimed by the
New Hampshire Commission for National and Community Service (Commission) and its
subgrantees from September 1, 1997 through December 3 1,2001. The primary objective
of the incurred cost audit was to express an opinion concerning whether the Schedules of
Award Costs (Exhibits A through G) fairly present the costs incurred by the Commission,
during the period under audit, in conformity with the terms of the Commission's grant
agreements with the Corporation for National and Community Service. Additionally, in
planning and performing our audit we also considered the Commission's internal controls
over financial reporting and its compliance with federal laws, applicable regulations, and
award Provisions. Further, we inquired of the Commission and its subgrantees selected
for audit, as to their awareness of the Corporation's Government Performance and
Results Act (GPRA) goals.

SUMMARY

Our report expresses a disclaimer of opinion on the Commission's Schedules of Award
Costs due to the lack of controls over financial reporting and compliance, as well as, the
nature of the findings identified, and the significance of the questioned costs identified in
relation to total costs incurred.

Our consideration of internal control over financial reporting identified a number of
matters, which require correction. We consider the following conditions to be material
weaknesses:

       Grants and Program Management - Adequate procedures for monitoring the
       financial activity and related compliance with laws and regulations of the
       Commission's subgrantees are not in place. Procedures for ensuring that
       verifiable records are maintained to support reported results in accordance with
       program requirements were not effective.

       Financial Management and Reporting - An effective system for ensuring
       quality control of accounting and financial reporting activities at the Commission
       for the period under review was not in place. Additionally, a comprehensive
       process for assessing the system of internal control for safeguarding assets,




1111          KPMG LLP KPhlG LLP a U S 11mrledI8abil81y partnership s
              a member of KPMG lnlernal~onala Swlss asstlciaclon
       producing reliable financial reports, and complying with laws and regulations was
       not in place.

Our tests of compliance with laws and regulations disclosed instances of noncompliance
resulting in questioned claimed costs as follows:

           $2,266,933 of claimed federal costs out of total claimed federal costs of
           $3,3 18,595 (68.3%) for the 4 AmeriCorps subgrantees tested;
           Related match of $865,037 of the total reported match of $2,028,944 (42.6%)
           for these same 4 subgrantees;
           $7 12,988 of claimed federal costs out of total claimed federal costs of
           $1,136,249 (62.7%) for the Commission's Administrative, PDAT and
           Disability grants, Governor's Innovative Award, Promise Fellows Awards,
           and Martin Luther King Awards;
           Related match of $259,8 13 of the total reported match of $5 12,046 (50.7%)
           for the Commission's Administrative grant;
           $835,480 related to Education Awards that may have been awarded to
           ineligible members.

In total, we questioned $2,979,92 1 (57.1%) of the claimed federal costs, and $1,124,850
(32.9%) of the related match amounts, for all grants administered by the Commission
during the audit period.

A significant portion of the questioned costs was due to the inability of the Commission
and its subgrantees to provide supporting documentation because their record retention
policies did not comply with AmeriCorps Provisions. The Provisions state that the
grantee must retain and make available all financial records, supporting documentation,
statistical records, evaluation data, member information and personnel records for 3 years
from the date of the submission of the final expenditure report (Financial Status Report or
FSR). Most of the grants at the Commission had not submitted their final Financial
Status Report and the Corporation has not closed out any of these grants.

The Corporation, pursuant to the authority of the National and Community Service Act of
1990, as amended, awards grants and cooperative agreements to State Commissions,
nonprofit entities and tribes and territories to assist in the creation of full and part time
national and community service programs. State Commissions are prohibited from
directly operating national service programs. State Commissions provide AmeriCorps
funding to approved applicants for service programs within their states and are
responsible for monitoring these subgrantees' compliance with grant requirements.
These awards provide funding for AmeriCorps members to perform service to meet
educational, human, environmental, and public safety needs throughout the nation. In
return for this service, eligible members may receive a living allowance and post service
educational benefits.
Background

The Corporation began making grant awards to the state of New Hampshire in January
1994. Under Title 42, United States Code, section 12638(a)(2), Governor Stephen
Merrill established an Alternative Administrative Entity, the New Hampshire Executive
Board for Community Service (Executive Board) to administer the supported programs
on the state's behalf. The statutory basis for the Executive Board was contained in
Chapter 19-G of the New Hampshire Revised Statutes. Section 3 of Chapter 19-G
specified that the New Hampshire Job Training Council (JTC) would provide support and
administrative staff for the Executive Board. The JTC's financial department was in
charge of ensuring that the financial information reported by the subgrantees and on
behalf of the Executive Board was valid and that the subgrantees' financial management
systems were in place and effectively accounting for the subgrantees' costs. On June 30,
1997, the Executive Board ceased to function and Chapter 19-G was repealed. By
Executive Order 97-5, Governor Jeanne Shaheen on October 13, 1997 established the
New Hampshire Commission for National and Community Service. The Commission
assumed the responsibilities of the Executive Board and continued to receive
administrative support from the JTC. The role of the JTC did not change during this re-
establishment period. The JTC continued to be responsible for the fiscal management of
the Commission and monitoring the financial status reports of the Commission's
subgrantees.

On July 17,2000, Governor Shaheen transferred the duties and responsibilities of the
Commission and two related organizations to Volunteer NH!, a nonprofit corporation.
The statutory basis for Volunteer NH! is found in Chapter 19-H of the New Hampshire
Revised Statutes. Section 19-H:1 states that Volunteer NH!, a 501(c)(3) nonprofit
organization, "incorporates the previous responsibilities and programs of the New
Hampshire office of volunteerism, the governor's council on volunteerism, and the New
Hampshire commission for national and community service (AmeriCorps)". Under
section 19-H:8, Volunteer NH! was administratively attached to the Department of
Administrative Services; however, the JTC still provided for the fiscal management of
the entity and monitoring of its subgrantees until it disbanded in September 2000. On
September 22, 1999, Governor Shaheen established the Workforce Opportunity Council.
It assumed the responsibilities of the JTC that did not relate to the Corporation grants.
While the JTC as a whole ceased to exist on September 1,2000, the former chief
financial officer of the JTC was retained until December 31,2000 to closeout all
accounting for all Commission activity administered by the JTC. Custody of the records
of the JTC, including those relating to the New Hampshire Commission and the
Executive Board, were transferred to the Workforce Opportunity Council.

As the JTC no longer exists, its financial personnel are no longer affiliated with the state
or Corporation-funded grants in the state. Its general ledger system is no longer
accessible to print detail reports by cost center, and the hard copy general ledger reports
provided to us did not present sufficient detail to enable us to audit the costs claimed
under Corporation-funded grants. In addition, the invoice support, personnel files, and
payroll information related to JTC that were required to complete our audit procedures
were not organized in a manner to facilitate identification of those that related to
Corporation-funded grants. As a result, we questioned a significant amount of costs
claimed by JTC in its administrative role for the Commission.

The four Commission subgrantees that we selected to audit continue to receive
Corporation funds - The Coalition Against Domestic and Sexual Violence (AVAP),
Belknap-Merrimack Counties Community Action Program (NH Reads), Tri-County
Community Action Program (Tri-County CAP), and Student Conservation Association,
Inc (SCA). The various compliance issues identified in relation to all subgrantees
indicate that the Commission needs to provide more guidance to subgrantees on record
retention and documentation standards for such items as eligibility, time sheets,
AmeriCorps roster updates on member status, and other claimed costs submitted for
reimbursement and matching costs reported. In addition, the Commission should
establish policies and procedures to ensure that its subgrantees maintain financial
management systems that include standard accounting codes and a clear audit trail, and
are capable of distinguishing expenditures attributable to grant and non-grant funding,
identifying costs by budget line item, and differentiating between direct and indirect
costs. The Commission should also implement policies and procedures requiring its
subgrantees to review member support and program operating matching requirements and
ensure compliance with AmeriCorps provisions.

The following sections comprise our report on the Schedules of Award Costs, our
consideration of the Commission's internal control over financial reporting, our tests of
the Commission's compliance with certain provisions of applicable laws, regulations, and
the terms of the Corporation's grant awards, and the Commission's and our
responsibilities.
REPORT ON THE SCHEDULES OF AWARD COSTS

We were engaged to audit the accompanying AmeriCorps Consolidated, Administrative,
Program Development and Training (PDAT), State Disability Funds, Promise Fellows,
Governor's Innovative Program, and Martin Luther King Program Schedules of Award
Costs (Exhibits A through G) for the New Hampshire Commission for National and
Community Service, a grantee of the Corporation for National and Community Service,
for the awards and award periods listed below:

Program                          Award Number           AwardIAudit Period

AmeriCorps



Administrative




Program Development and
Training (PDAT)

State Disability Funds

Promise Fellows



Governor's Innovative
Program


Martin Luther King Program       99MDDNHO 16            Not available

Our audit covered the award period from September 1, 1997 through December 3 1,2001
for the AmeriCorps program and the entire award periods noted above for the
Administrative, PDAT, State Disability Funds, Promise Fellows, Governor's Innovative
Program, and Martin Luther King Program.

As discussed in our Report on Internal Control over Financial Reporting and our Report
on Compliance, the Commission did not have an adequate system in place, during the
period under audit, to monitor the financial and programmatic activities of its
subgrantees. Additionally, certain of the Commission's subgrantees did not maintain
adequate accounting records and/or AmeriCorps program files, and adequate evidential
matter in support of recorded transactions was not available in all cases. As a result, we
identified instances of noncompliance and questioned costs, which are material to the
Schedules of Award Costs.

Further, there were several changes in the Commission during the period under audit.
The JTC no longer exists, and its financial personnel are no longer affiliated with the
state or Corporation-funded grants in the state. As a result, present management of the
Commission was unable to furnish us with knowledgeable representation of facts and
circumstances regarding certain transactions arising during the audit period. It was
impracticable to extend our procedures sufficiently to determine the extent to which the
Schedules of Award Costs may have been affected by the foregoing conditions.

Because of the matters discussed in the two preceding paragraphs, the scope of our work
was not sufficient to enable us to express, and we do not express, an opinion on the
accompanying AmeriCorps Consolidated, Administrative, PDAT, State Disability Funds,
Promise Fellows, Governor's Innovative Program, and Martin Luther King Program
Schedules of Award Costs.

The Schedules of Award Costs by subgrantee (Exhibits H- 1 through H-8) are presented
for additional analysis of the AmeriCorps Consolidated Schedule of Award Costs
(Exhibit A) rather than to present the costs incurred by the individual subgrantees. The
information presented in Exhibits I, J, and K is also presented for additional analysis.
Because of the matters discussed in the second and third preceding paragraphs, the scope
of our work was not sufficient to enable us to express, and we do not express, an opinion
on this information.
                                                                                                       Exhibit A


                                  New Hampshire Commission on National and Community Service
                                                        AmeriCorps
                                            Consolidated Schedule of Award Costs
                                         From September 1,1997 to December 31,2001

                                                Approved               Claimed            Questioned
               Cost Category                     Budget                 Costs               Costs

Member Support Costs:
  Living Allowance                                                 $    1,773,721
  FICA & Workers Comp.                                                    191,316
  Health Care                                                             l84,52 1
  Other                                                                      3,345
Subtotal                                                                2.1 52,903

Other Member Costs:
  Training & Education                                                    60,798
   Uniforms                                                                7,508
  Other                                                                    7,904
Subtotal                                                                  76,210

Staff:
   Salaries                                                               998,882
   Benefits                                                               184,734
   Training                                                                 4,064
   Other                                                                    4,038
Subtotal                                                                1,191,718

Operational:
 Travel                                                                   34,527
  Corporation Sponsored Meeting                                            2,000
  Supplies                                                               123,923
 Transportation                                                          23 1,070
  Equipment                                                               14,644
  Other                                                                   68,252
Subtotal                                                                 474,416

Internal Evaluation                                                         5,257

Administration                                                           176,074

Difference Between GL and Schedule                                               0

Adjustment to Agree General
Ledger to FSRs:                                                              (782)

Federal Costs Claimed in Excess
of Approved Percentage:
   Section A
   Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:




                                     See accompanying notes to Schedules of Award Costs.

                                                               7
                                                                                                           Exhibit B


                  New Hampshire Commission on National and Community Service
                                   Administrative Award
                            Consolidated Schedule of Award Costs
                         From September 1,1997 to December 31,2001

                                              Approved                Claimed              Questioned
          Cost Category                        Budget                  Costs                 Costs

Staff:
   Salaries
   Benefits
   Other
Subtotal

Travel:
  Commissioners
  Staff
  Other
Subtotal

Subcontracts/Grants/Agreements:
 Contracts
Subtotal

Operating Costs:
 Supplies
 Equipment
 Communications
  Space
Subtotal

Amount Questioned in Excess of
10% of the Approved Budget:

Adjustment to Agree General Ledger
to FSRs:

Total Corporation Funds

Total Matching Funds

Total Funds


* Amounts do not foot because detailed schedules were not provided for cost incurred related to the
periods during which JTC served as the administrative entity for the Commission. Thus, the total amounts
were added directly into the total lines for both Corportation funds and matching funds. These amounts
were obtained from the FSRs provided to the Corporation by JTC.



                                 See accompanying notes to the Schedules of Award Costs.
                                                                                                               Exhibit C


                  New Hampshire Commission on National and Community Service
                         Program Development and Training (PDAT)
                                       Schedule of Award Costs
                              From September 1,1997 to December 31,2001


                                                Approved             Claimed               Questioned
              Cost Category                      Budget               Costs                  Costs

Program Staff
    Salary & Benefits

Program Staff Development

Consultants

Training Events

Sub-contracts, Sub-grants

Communication - Systems

Supplies

Other

Research

Questioned Costs Not Identified with a
Specific Budget Line

Adjustment to Agree General Ledger
to FSR:


Total Corporation Funds


* Amounts do not foot because detailed schedules were not provided for cost incurred related to the periods during
which JTC served as the administrative entity for the Commission. Thus, the total amounts were added directly into
the total lines for both Corportation funds and matching funds. These amounts were obtained from the FSRs provided
to the Corporation by JTC.




                                  See accompanying notes to the Schedule of Award Costs.



                                                            9
                                                                                       Exhibit D


               New Hampshire Commission on National and Community Sewice
                              Martin Luther King Program
                               Schedule of Award Costs
                      From September 1,1997 to December 31,2001


                          Budget                Claimed            Questioned Costs

Corporation Funds     $       2,000         $       2,000          $           2,000




                           See accompanying notes to the Schedule of Awards Costs.

                                                     10
                                                                                     Exhibit E


         New Hampshire Commission on National and Community Service
                       Governor's Innotative Program
                         Schedule of Award Costs
                From September 1,1997 to December 31,2001


                       Approved          Claimed          Questioned
                        Budget            Costs             Costs

Corporation Funds      $   99,176       $   71,420        $    71,420




                           See accompanying notes to the Schedule of Awards Costs.

                                                     11
                                                                                    Exhibit F


           New Hampshire Commission on National and Community Service
                            Promise Fellows Award
                     Consolidated Schedule of Award Costs
                  From November 1,1998 to December 31,2001


                       Approved             Claimed            Questioned
                        Budget               Costs               Costs

Corporation Funds     $   198,620       $    161,214           $   61,401




                           See accompanying notes to the Schedule of Award Costs.
                                                                                    Exhibit G


     New Hampshire Commission on National and Community Service
                 State Disability Funds Grant Award
                       Schedule of Award Costs
            From February 1,2001 to December 31,2001


                       Approved         Claimed           Questioned
                        Budget           Costs              Costs

Corporation Funds      $ 22,864        $ 12,739           $     769




                           See accompanying notes to the Schedule of Award Costs.

                                                     13
         New Hampshire Commission on National and Community Service
                     Notes to Schedules of Award Costs


1. Summary of Significant Accounting Policies

Reporting Entity

The accompanying Schedules of Award Costs include amounts budgeted, claimed, and
questioned under AmeriCorps, Administrative, Program Development and Training
(PDAT), State Disability, Promise Fellows, Governor's Innovative Program, and Martin
Luther King (MLK) grants awarded to the New Hampshire Commission on National and
Community Service (Commission) by the Corporation for National and Community
Service for the period September 1, 1997 to December 3 1,2001.

The Commission subsequently awards its grant funds to numerous subgrantees that
administer the AmeriCorps and report financial and programmatic results to the
Commission.

Basis of Accounting

The accompanying Schedules have been prepared to comply with the Provisions of the
grant agreements between the Corporation and the Commission. The information
presented in the Schedules has been prepared from the reports submitted by the
Commission to the Corporation and the accounting records of the Commission and its
subgrantees. The basis of accounting used in preparation of these reports differs slightly
from accounting principles generally accepted in the United States of America as follows:

Equipment

Equipment is charged to expense in the period during which it is purchased instead of
being recognized as an asset and depreciated over its useful life. As a result, the expenses
reflected in the Schedules of Award Costs include the cost of equipment purchased
during the period rather than a provision for depreciation. The equipment acquired is
owned by the Commission while used in the program for which it was purchased or in
other future authorized programs. However, the Corporation has a reversionary interest
in the equipment. Its disposition, as well as the ownership of any proceeds therefore, is
subject to Federal regulations.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.
Explanation of Selected Schedule Line Items

Adjustment to Agree General Ledger to FSRs

AmeriCorps general ledger detail provided by various subgrantees did not agree to the
submitted FSRs. The amount on this line represents the difference between these two
sources of information.

Federal Costs Claimed in Excess of Approved Percentage

The results of the incurred cost audit indicated that various subgrantees did not meet the
matching requirements of their approved AmeriCorps budgets. Such requirements are
divided between Section A costs (member support costs) and Sections B-F costs (other
costs). In the accompanying Schedules of Award Costs, these lines represent the amount
of questioned costs resulting from the subgrantees' failure to meet the matching
requirements in each cost section.

Difference Between the General Ledger and Schedule

AmeriCorps general ledger detail provided by various subgrantees did not agree to the
submitted Schedule of Awards for each program year. The amount on this line represents
the amount of questioned costs resulting from subgrantees' Schedule of Awards
exceeding the amounts recorded in their internal general ledgers.

Questioned Cost Not Identified with a Specific Budget Line

This line represents the questioned costs related to JTC. The Commission did not
provide detailed schedules of awards necessary to break out the expenditures in the
traditional manner.

Ouestioned Costs

Questioned costs are costs for which there is evidence that the recorded costs were
expended in violation of the law, regulations or specific conditions of the awards, or
those costs which required additional support by the grantee or which require
interpretation of allowability by the Corporation. Certain amounts included in questioned
member support costs are based on estimates. Questioned costs included on the
accompanying Schedules do not include potentially disallowed education awards related
to ineligible members. Such additional questioned costs amount to $835,480.

A detailed reconciliation of amounts identified as questioned costs in the Report on
Compliance to those reflected on Exhibits A through G is presented in Note 2.
                                                 2.A. Summary of Questioned Costs - Amencorps




                                                       Consolidated Full
                                                        Scope Audit -                      Tri-County          Student
                                            Finding      AmeriCotps                        Community         Conservation
                   Finding                  Number       Subgrantees                      Action Program     Association
Questioned Claimed Costs
Lack of documentation
    Eligibility requirements
    Time and attendance records and
    proper authorization of timesheets
General ledger andlor payroll records
were not maintained, or expenses reported
in the FSRs exceeded expenses recorded
in the general ledger

Documentation to support selected
payments claimed under the grant was not
maintained or the expenditure was
unallowable
Administrative costs in excess of the
maximum Corporation share
Funds were allocated to different budget
cost categories without prior approval

Matching requirements were not met
  Subtotal

Questioned Match
Lack of documentation
    Eligibility requirements
    Time and attendance records and
    proper authorization of timesheets
General ledger andlor payroll records
were not maintained, or expenses reported
in the FSRs exceeded expenses recorded
in the general ledger
Documentation to support selected
payments claimed under the grant was not
maintained
Match amounts claimed are not properly
supported
   Subtotal
                                  Total



                                                                                                           (Continued)
                                                2.A. Summary of Questioned Costs - AmeriCorps



                                                                           Beknap-
                                                                          Merrimack
                                                      Coalition Against   Community
                                            Finding    Domestic and         Action
                 Finding                    Number    Sexual Violence      Program
Questioned Claimed Costs
Lack of documentation
    Eligibility requirements
    Time and attendance records and
    proper authorization of timesheets
General ledger andlor payroll records
were not maintained, or expenses reported
in the FSRs exceeded expenses recorded
in the general ledger

Documentation to support selected
payments claimed under the grant was not
maintained or the expenditure was
unallowable
Administrative costs in excess of the
maximum Corporation share
Funds were allocated to different budget
cost categories without prior approval

Matching requirements were not met
  Subtotal

Questioned Match
Lack of documentation
    Eligibility requirements
    Time and attendance records and
    proper authorization of timesheets
General ledger andlor payroll records
were not maintained, or expenses reported
in the FSRs exceeded expenses recorded
in the general ledger
Documentation to support selected
payments claimed under the grant was not
maintained
Match amounts claimed are not properly
supported
   Subtotal
                                  Total
2.B. Summary of Questioned Costs - Administrative, PDAT, Promise Fellows, Governor's Innovative Program, Martin Luther King Program
                                                     and State Disability Grants


                                                        Consolidated Full
                                                          Scope Audit -
                                             Finding    Commission Level                Administrative
                   Finding                   Number          Grants                        Grant           PDAT Grant
   Questioned Claimed Costs
   Documentation to support selected
   payments claimed under the grant was
   not maintained                              12       $          37,4 18
   Funds were allocated to different
   budget cost categories without prior
   approval                                    13


    Inability to gain access to subgrantee
    records                                    11                 671,885
    Subtotal                                                      7 12,988

   Questioned Match
   Inability to gain access to subgrantee
   records                                     11
   Match amounts claimed are not
   properly supported                          14                   2,549
   Subtotal                                                       259,8 13
                                     Total               $        972,801 E


                                                                                                         (Continued)
2.B. Summary of Questioned Costs - Administrative, PDAT, Promise Fellows, Governor's Innovative Program, Martin Luther King Program
                                                        and State Disability Grants




                                                                       Governors
                                                       Promise         Innovative      Martin Luther   State Disability
                         Finding                       Fellows          Program        King Program         Grant
          Questioned Claimed Costs
          Documentation to support selected
          payments claimed under the grant was
          not maintained                           $                   $                $
          Funds were allocated to different
          budget cost categories without prior
          approval


          Inability to gain access to subgrantee
          records                                         61,401             7 1,420          2,000
          Subtotal                                        61,401             7 1,420          2,000               769

          Questioned Match
          Inability to gain access to subgrantee
          records
          Match amounts claimed are not
          properly supported
          Subtotal
                                           Total   $      61,401       $     71,420     $     2,000      $        769
REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING

We noted certain matters, described below, involving internal controls over financial
reporting that we consider to be reportable conditions under standards established by the
American Institute of Certified Public Accountants. We believe the reportable conditions
identified as items 1 and 2 below are material weaknesses. These conditions were
considered in determining the nature, timing, and extent of the procedures to be
performed in our audit of the Schedules of Award Costs of the Commission for the period
September 1, 1997 to December 3 1,2001.

Our consideration of internal controls would not necessarily disclose all matters in
internal control over financial reporting that might be reportable conditions and,
accordingly, would not necessarily disclose all reportable conditions that are also
considered to be material weaknesses. Reportable conditions involve matters coming to
our attention relating to significant deficiencies in the design or operation of the internal
controls, that, in our judgment, could adversely affect the Commission's ability to record,
process, summarize, and report financial data consistent with the assertions of
management in the Schedules.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control structure elements does not reduce to a relatively low level
the risk that misstatements, in amounts that would be material in relation to the financial
schedules being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Because of
inherent limitations in internal control, misstatements due to error or fraud may occur and
not be detected.

The objective of our audit was not to provide assurance on the Commission's internal
control over financial reporting. Consequently, we do not provide an opinion on internal
control over financial reporting.

The following paragraphs present reportable conditions identified during our incurred
cost audit of the Schedules of Award Costs and the unresolved reportable conditions that
were identified during a pre-audit survey conducted in 1999. A more detailed summary
of the status of reportable conditions as first reported in OIG Audit Report Number 00-
19l, Pre-Audit Survey Report of the New Hampshire Commission on National and
Community Service issued on October 22, 1999, is presented as Exhibit L.




' For additional information, including the responses by New Hampshire Commission and the Corporation,
see OIG Audit Report #00-19; Pre-Audit Survey Report of the New Hampshire Commission on National
and Community Service, issued by the Corporation OIG.
    Material Weaknesses

    1. Grants and Program Management

    The New Hampshire Commission is responsible for evaluating whether its subgrantees
    comply with legal, reporting, financial management and grant requirements and ensuring
    follow through on issues of noncompliance. The Commission did not have a
    comprehensive program to monitor the programmatic activity of all subgrantees to ensure
    adequate attention was given to compliance issues and that documentation was retained
    as evidence of compliance. As a result, we identified control weaknesses and instances
    of noncompliance resulting in significant questioned costs. Additionally, as noted in the
    Report Summary beginning on page 3, during the period audited, the Commission
    changed administrative entities from the JTC to Volunteer NH!.

    In August 2001, we obtained the AmeriCorps member rosters from the National Service
    Trust database for individual program years for each of the four Commission AmeriCorps
    subgrantees selected for audit in order to select member files for testing. The following
    subgrantee rosters (obtained from the Corporation and represented to us as current) for
    the respective program years did not appear accurate or complete, or had not been
    properly updated.

    Subgrantee                                    Program Year and Exception
    Tri-County Community Action Program           1997-98 roster lists four members as active
I                                               I even though they are no longer affiliated
                                                  with the AmeriCorps Program
                                                                                                I
    Coalition Against Domestic and Sexual         1998-99 roster lists one member as active
I Violence     -                                I even though she is no longer affiliated       1
                                                I with the AmeriCorps Program.
    The Corporation relies on the Commission and its subgrantees to maintain systems and
    management controls that provide accurate information related to member service to the
    National Service Trust. The noncompliance issues related to member status forms
    identified above and in the Report on Compliance indicate that the Commission needs to
    take more responsibility for the accuracy and completeness of member status reporting by
    its subgrantees to the Corporation. In addition, failure to provide accurate member
    information to the Corporation could result in erroneous education awards being issued
    and undermines the reliability of certain of the Corporation's GPRA statistics.

    Further, during our audit work at individual subgrantees, we identified the following
    internal control deficiencies, which indicated inadequate monitoring of subgrantees by
    the Commission:

       Two subgrantees (Tri-County and SCA) do not have a documented process for filing
       and adjudicating grievances from labor organizations or other interested parties
       concerning project or program operations.
   One subgrantee (SCA) does not maintain a written agreement with partnering
   agencies that specifically addresses employee displacement or service duplication.
   One subgrantee (SCA) does not maintain adequate physical security of its negotiable
   instruments, such as blank checks.
   Prior to April 1999, one subgrantee's (AVAP) accounting system was incapable of
   adequate fund accounting. In addition, the subgrantee's current system does not have
   a budget module, making it difficult to track and analyze actual expenditures against
   the approved budget.
   Three of the subgrantees (NH Reads, Tri-County CAP and SCA) reallocated funds
   between budgeted line items without the appropriate authorization from the
   Corporation andlor the Commission.

We recommend the Commission take the following actions to improve its grants and
program management processes.

   Complete the implementation of the recently developed policies and procedures
   designed to monitor the programmatic and financial activity of all subgrantees.
   Enhance its recently developed monitoring policies and procedures to include specific
   sampling guidelines for all areas of the monitoring tool and for the review of the
   validity of reported program accomplishments.
   Ensure that operating sites (i.e., the locations where service is performed) are visited
   during each subgrantee monitoring visit.
   Ensure that a person knowledgeable of financial management requirements
   accompanies Commission program personnel on each site visit and performs financial
   monitoring activities.
   Ensure adequate attention is given to compliance issues which may not be addressed
   even if an audit in accordance with OMB Circular A-133, Audits of States, Local
   Governments and Non-profit Organizations, has been performed for any specific
   subgrantee.
   During site visits, the frequency of which should depend on the level of risk assessed
   by the Commission, ensure that subgrantees are compliant with revised guidance and
   are adequately following up on deficiencies communicated to them by the
   Commission.
   Ensure that current subgrantees establish procedures by which adequate segregation
   of accounting duties is maintained; systems are in place to ensure that expenses
   incurred can be accurately reported to the Corporation and are based on approved
   budget line items; systems are in place to track the number of hours members spend
   on training; and effective accounting controls over bank reconciliations, the posting
   of journal entries, and the cancellation of vouchers are implemented.
   Establish and implement timeframes for formal submission of site visit feedback to
   the subgrantee and for receipt of the subgrantee's corrective action plan if issues are
   identified.
2. Financial Management and Reporting

The Commission is required to select organizations for award, administer Corporation
grant funds and monitor subgrantees for financial activities and compliance with laws,
regulations and provisions of grant awards. The Corporation's regulations describe
standards for financial management systems that must be maintained by State
Commissions. OMB Circulars also establish standards for monitoring, compliance
oversight, record retention, documentation and allowable costs.

As noted above and in Exhibit L, the 1999 pre-audit survey procedures revealed that the
Commission had minimal controls in place to provide reasonable assurance that grant
funds were administered according to Corporation and federal guidelines and inadequate
procedures for maintaining internal controls that provide for accurate, current, and
complete disclosure of financial and programmatic results.

Many of the weaknesses identified at the Commission during the pre-audit survey were
validated by exceptions we identified for individual subgrantees of the Commission, and
resulted in significant questioned costs. Subsequent to the pre-audit survey, the
Commission began to develop, and is still developing, formal procedures to improve
controls and ensure compliance with all applicable regulations.

However, the Commission has not fully developed and documented the procedures for
the following pre-audit survey conditions:

   Ensure that selection officials review prior evaluations of subgrantees during the
   renewal application process.
   Ensure potential subgrantees' financial systems are assessed during the risk
   assessment process.
   Review subgrantees' (1) financial systems, (2) AmeriCorp's member timesheets, (3)
   expense documentation, (4) member living allowances and hours accumulation
   during site visits, and (5) OMB Circular A-133 Reports.

Further, during the incurred cost audit, we found the following additional internal control
weaknesses:

    Schedules of award costs and supporting detail reports for each Commission-level
    grant administered by JTC could not be prepared from existing accounting records
    before we concluded our Commission-level fieldwork. Through inquiry, we
    determined that the JTC Financial Department was responsible for ascertaining that
    each subgrantee met its matching funds requirements and that related follow-up was
    performed. However, we could not determine if this control was functioning
    effectively.
    JTC hired a new Executive Director in July of 1999 without obtaining prior written
    approval from the Corporation as required by grant provisions.
    On several occasions, Volunteer NH! Executive Director's timesheets were not
    properly authorized by the Board Chair.
   A list is not maintained of Volunteer NH!'s equipment funded by the Corporation as
   required by OMB Circular A-1 10 and A-133; property purchased with federal funds
   or provided by a federal agency is not properly identified as such; and Volunteer NH
   lacks physical controls over its equipment, such as periodic physical inspections to
   verify asset existence.
   Volunteer NH!'s Executive Director is an authorized check signer and maintains
   control over the petty cash fund, several starter checks, and cash receipts.
   Volunteer NH!'s cash is not logged in upon receipt, or periodically reconciled with
   the accounting system.
   The individual who is responsible for the custody of cash receipts at Volunteer NH! is
   also responsible for recording the receipts in the accounting system.
   On 5 occasions, an employee under the Executive Director's responsibility
   inappropriately approved Volunteer NH! Executive Director's travel expenditures.
   The Commission does not prepare reconciliations which compare the actual amount
   of cash drawn down from the Department of Health and Human Services (HHS) to
   the cleared accounts receivable (i.e., claimed expenses). For PDAT and Promise
   Fellows grants, we noted that the amount of cash draw down from the HHS exceeded
   the amounts claimed on the related FSRs. In addition, one subgrantee (AVAP)
   received funds in excess of claimed expenditures and has not returned the funds or the
   interest earned to the Corporation.

We recommend that the Commission develop a comprehensive set of policies and
procedures for all grants received from the Corporation. These policies and procedures
should address all aspects of the Commission's financial activities, including the
accounting, reporting and monitoring of funds received and disbursed by the
Commission. Once developed, these policies and procedures should be immediately
implemented to ensure that day-to-day procedures are performed accurately and
consistently, thus minimizing the risk of Corporation funds being improperly disbursed.

We recommend the Corporation follow up with the Commission to ensure the new
procedures have been properly implemented and adequate corrective action is taken on
the unresolved conditions noted in the pre-audit survey report and on the additional
matters discussed above.

REPORT ON COMPLIANCE

The results of our tests of compliance disclosed the following instances of noncompliance
and related questioned costs as reflected in Exhibits A through G, for which the ultimate
resolution cannot presently be determined. It is the responsibility of the Corporation to
determine whether the questioned costs are allowed or disallowed. Questioned costs
identified were developed using either actual costs (in those instances that actual costs
were provided by the Commission and its subgrantees) or estimated costs (in those
instances that actual costs were not readily available).
AmeriCorps Grant

A. Compliance Findings Resulting in Questioned Costs

The specific amounts questioned related to the findings discussed below are included in
the Supplemental Schedules of Award Costs by subgrantee at Exhibits H-l through H-8,
and in the Summary of Questioned Costs included as Note 2 to the Consolidated
Schedule of Award Costs. This Note reconciles the amounts identified as questioned
costs in the following paragraphs to the consolidated amounts of questioned costs
reflected in Exhibit A.

1. Lack of documentation

       a. Eligibility requirements were not met (Questioned Claimed Costs of
          $1,305,039, Questioned Match Amounts of $351,830 (other match amounts
          questioned in additionalfindings reported below), and Questioned Education
          Awards of $835,480).

The following subgrantees failed to maintain sufficient documentation to verify that
members met eligibility requirements. The AmeriCorps Special Provisions state, in part,
that "the Grantee must maintain verifiable records which document each member's
eligibility to serve based upon citizenship or lawful permanent residency, birth date, level
of educational attainment, date of high school diploma or equivalent certificate (if
attained). . .If a member does not have a high school diploma or its equivalent at the time
of enrollment, the Grantee must maintain a record of the member's elementary or high
school drop-out date, the member's written agreement to obtain a high school diploma or
its equivalent before using the education award, and, if applicable, verification of the
member's enrollment at an institution of higher education.. ."

Subgrantee                              Member Files     Applicable program
                                        Lacking          years
                                        Documentation1
                                      ( Sample Size
Lacking Documentation For: High school diploma, equivalent certificate or other
required documentation
Coalition Against Sexual and Domestic 20 of 21           1997-98 through 2000-0 1
Violence*
Belknap-Merrimack Community           1 5 o f 15       1 1997-98 through 1999-
Action Program*"                                         2000
Tri-County Community Action             20 of 26         1997-98 through 2000-0 1

Student Conservation Association*             20 of 20             1997-98 through 2000-01
                                          I                    I

Lacking Documentation For: Proof of age or parental consent
Belknap-Merrimack Community         1 4 o f 25           ( 1997-98 & 1998-99
Subgrantee
                                           Lacking                years
                                           Documentation/

Action Program**                                              I

Student Conservation Association*          7 of 20            1 1997-98 through 1999-
                                                                  2000
Tri-County Community Action                13 of 26               1997-98 through 1999-
Program*

Lacking Documentation For: Proof of citizenship
Coalition Against Sexual and Domestic     1 9 of 21           1 1997-98 through 1999-
Violence*                                                         2000
Belknap-Merrimack Community                5of 15                 1997-98 & 1998-99
Action Program**
Tri-County Community Action                13 of 26               1997-98 through 1999-
Program*                                                          2000
Student Conservation Association*          7 of 20                1997-98 through 1999-


*    Because of the significant number of exceptions noted, we have questioned all
     member costs incurred for these subgrantees and all related Education Awards issued
     by the Corporation.

**   Because of the number of exceptions noted, we have questioned 33 % of member
     costs incurred for this subgrantee and all related Education Awards issued by the
     Corporation relating to the member files that lacked documentation.

        b. Documentation to support time and attendance records and proper
           authorization of timesheets was not evident, including lack of support for
           AmeriCorps members' terms of service (Questioned Claimed Costs of
           $224,268 and Questioned Match Amounts of $15,373 (other match amounts
           questioned in additional findings reported below)).

The AmeriCorps Special Provisions also require that each program must maintain records
to verify that the member successfully completed the program requirements with a
minimum of 1,700 hours of participation as a full-time member, 900 hours of
participation as a part-time member, or 300-900 hours of participation as a reduced part-
time member. Lack of documentation to support successful completion of hours of
service could ultimately result in questioned education awards.

Further, the AmeriCorps Special Provisions state that "time and attendance records must
be signed by both the member and by an individual with oversight responsibilities for the
member." They also require that any staff salaries and wages charged directly to a grant
or charged to matching funds must be supported by a signed time and attendance report
for each individual employee regardless of position. The member or employee's
signature represents acknowledgement that the hours reported reflect an accurate
depiction of the hours served for the program. A supervisor's signature indicates
approval and concurrence with the hours recorded by the memberlemployee.

The subgrantees listed below (a) could not locate staff timesheets for entire program
years, or (b) could not provide timesheets that were signed by the individual or an
authorizing official for selected program years, or (c) did not maintain required
documentation to support staff salary rates.

Subgrantee                         Member Files          Applicable program
                                   Lacking               years
                                   Documentation/
                                 ( Sample Size         I
Lacking Documentation For: Approved Staff Timesheets
Coalition Against Sexual and       3 of 20               1997-98 & 1998-99
Domestic Violence
Student Conservation Association   9 of 40               1997-98 & 1998-99
Tri-County Community Action        All *                 1" Quarter 1997-98
Program
Lacking Documentation For: Approved Staff Salary Rates
Coalition Against Sexual and        N/A* *               1997-98 & 1998-99
Domestic Violence

* The subgrantee could not locate any staff timesheets for the 1" quarter of the 1997-98
program year.
** The subgrantee could not provide documentation supporting the approved salary rate
for one staff member for two years of her employment.

2. General ledger andor payroll records were not maintained, or expenses reported in
   the FSRs exceeded expenses recorded in the general ledger (Questioned Claimed
   Costs of $24,241 and Questioned Match Amounts of $1,748).

The AmeriCorps General Provisions state that subgrantees must maintain adequate
supporting documents for every expenditure (federal and non-federal) and in-kind
contribution made under this grant. Costs must be shown in books or records (e.g., a
disbursement ledger or journal), and must be supported by a source document, such as a
receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

Subgrantees must maintain financial management systems that include standard
accounting practices, sufficient internal controls, a clear audit trail and written cost
allocation procedures as necessary. Financial management systems must be capable of
distinguishing expenditures attributable to a grant from expenditures not attributable to a
grant. This system must be able to identify costs by programmatic year and by budget
category and to differentiate between direct and indirect costs or administrative costs.
Subgrantees' financial management responsibilities are detailed further in OMB Circular
A- 110, Uniform Administrative Requirements for Grants and Agreements with
    Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations, and its
    implementing regulations.

    Coalition Against Domestic and Sexual Violence
    Claimed salary costs per the general ledger for program years 1997-98 and 1998-99
    exceeded total expenses recorded in the payroll registers.

    Community Action Belknap-Merrimack County and Coalition Against Domestic and
    Sexual Violence
    Claimed costs per the FSRs for program years 1997-98, 1998-99, & 2000-01 exceeded
    total expenses recorded in the general ledger.

    3. Documentation to support selected payments claimed under the grant was not
       maintained (Questioned Claimed Cost of $3,093 and Questioned Match Amounts of
       $2,148).

    The following subgrantees were unable to provide documentation that supported the
    existence and/or reasonableness of selected payments claimed for reimbursement from
    the Commission:

    Coalition Against Domestic and Sexual Violence
    Category of Cost     I Payee                        I   Amount I         Program Year
    Other Member Costs I N/A**                          I      $500* (         1999-2000
    - Training
    Member Costs -         N/A**                              $2,8 13"         1998-99
    Healthcare
    Other Member Costs Patricia Baum                            $131*          1998-99
    - Training
    Other Member Costs Unitarian Universalist                   $130"          1998-99
    - Training             Church
    Member Training        The Gristmill Restaurant             $545*           1998-99
    Costs
    - .   -              I                              I                I
,   Operational - Other    N/A**                                 $160          1998-99
    Overational - Other    N/A**                                 $150          1998-99
    Operational - Other I N/A**                                  $200    1     1998-99

    * These amounts were not included in the above questioned costs because all "other
    member costs" were questioned due to member non-compliance.
    ** The "payee" could not be determined because supporting documentation was not
    provided for the expenditure. In addition, the general ledger did not include "payee"
    information.

    The following subgrantees charged expenses to the AmeriCorps program that were either
    unrelated or unallowable to the program, or we could not determine whether they were
    incurred solely for the program. The related amounts in expenditures selected for review
    were as follows:
 The Coalition Against Domestic and Sexual Violence
                        Payee                           Amount           Program Year
                        Eagle Pond Catering               $500*             2000-0 1
 - Training
 Operational - Other    Patricia Baum                         $39         1999-2000

I Other Member Costs    Theresa Maier                      $562*     1     1998-99
 - Training
 Other Member Costs     Patricia Baum                      $156*           1997-98
 - Training
 Other Member Costs     Industry Prints                    $502*           1997-98

                        Alan's of Boscawen                 $650*           1997-98
 - Training
 Operational -          Speedy Printing                      $334          1997-98
 Supplies

 * These amounts were not included in the above questioned costs because all "other
 member costs" were questioned due to member non-compliance.

 Belknap-Merrimack Community Action Program
 Category of Cost     Payee                             Amount           Program Year
 Other Member Costs   American Express                     $194             2000-0 1
 Other Member Costs   American Express                     $370             2000-0 1
 Other Member Costs   Concord Stop and Save                $320             2000-0 1
 Member Support       New Hampshire Job                    $520             1998-99
 Costs - Healthcare   Training: council
                               V
                                                    1                I
 Member Support       New Hampshire Job                      $160    1     2000-0 1
 Costs - Healthcare   Training council
 Other Member Costs   New Hampshire Job                      $629           1998-99
                      Training council              I                I
 Other Member Costs I New Hampshire Job             I        $637    1      1998-99
                      Training Council
 Other Member Costs The Gristmill Restaurant                 $49 1          1998-99

 Tri-County Community Action Program
 Category of Cost       Payee                           Amount           Program Year
 Operational - Other    New Hampshire Job                  $609             1998-99
                        Training Council
 Operational - Other    New Hampshire Job                    $428           1998-99
                        Training Council

 The AmeriCorps General Provisions state that subgrantees must maintain adequate
 supporting documents for every expenditure (federal and non-federal) and in-kind
contribution made under this grant. Costs must be shown in books or records (e.g., a
disbursement ledger or journal), and must be supported by a source document, such as a
receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

4. Administrative costs in excess of the maximum Corporation share were claimed
   (Questioned Claimed Costs of $66,022).

The AmeriCorps General Provisions indicate that administrative costs cannot exceed 5%
of total Corporation funds actually expended under the award.

The following subgrantees claimed administrative costs in excess of this maximum
percentage:

Subgrantee                                         ~pplicableprogram years
Coalition Against Domestic and Sexual Violence     All vears
Tri-County Community Action Program                All years
Student Conservation Association                   All years

5. Funds were allocated to different budget cost categories without prior approval,
   when required (Questioned Claimed Costs of $1 8,832).

The following subgrantees departed from the approved budget without obtaining prior
written approval:

Subgrantee                 Category from       Category that funding Applicable
                           where funding       was disbursed         program
                           was reduced                               years
Belknap-Merrimack          Member support      Other Member Support 1998-99
Community Action           costs               Cost - Staff Salaries
Program
Tri-County Community       Member support      Operational - Other       1999-2000
Action Program             costs
Student Conservation       Member support      Operational - Supplies    1999-2000
Association                costs

* All member support costs were already questioned due to member non-eligibility
compliance.

The AmeriCorps Provisions state that the subgrantee must obtain the prior written
approval of the Corporation before deviating from the approved budget in various ways,
including:

           Reallocation of Funds from the "Member Support Cost" category to other
           categories of the approved budget. The specific line items covered by this sub
           clause are:
           a.      Living Allowance
           b.      FICA, worker's compensation, and unemployment insurance and
           c.      Healthcare
           (1994 - 2000 Provisions)
           Budgetary transfers to absorb administrative costs above the amount specified
           in the approved budget, if below the 5% maximum limit (1994 - 1999
           Provisions).
           Within the "Other Member Costs" category, the subgrantee may not decrease
           funds budgeted for training and education without prior Corporation approval
           (1995 - 1999 Provisions).

6. Matching requirements were not met (Questioned Claimed Costs of $625,438).

According to the AmeriCorps Provisions, the grantee must provide and account for
matching funds consistent with the approved application and budget. The Corporation
requires, at a minimum, the following aggregate matches:

i)     Member support costs of 15% - including living allowance, FICA,
       Unemployment Insurance, Worker's Compensation and Healthcare; and
ii)    Program operating costs of 33% - including other member costs, staff, operating
       costs, internal evaluation and administration.

After taking questioned costs noted elsewhere in this incurred cost audit into
consideration, the following subgrantees did not meet matching requirements for certain
program years:

Subgrantee                                Applicable        Applicable program
                                          budget/FSR cost   years
                                          section
Coalition Against Domestic and            Both              1997-98
Sexual Violence
                                      1   Both
                                          Both
                                          Sections B-F
                                                            1998-99
                                                            1999-2000
                                                            2000-0 1
Belknap-Merrimack Community               Both              1997-98
Action Program

                                          Section A         2000-0 1
Student Conservation Association          Both              1997-98


                                          Both              2000-0 1
Tri-County Community Action               Both              1997-98
Program                                   Both              1998-99
                                          Both              1999-2000
                                          Both              2000-0 1
7. Match amounts claimed are not properly supported (Questioned Match of $493,938).

Student Conservation Association
The Student Conservation Association could not provide support for any of their in-kind
contributions for program years 1997-98 through 2000-01. Therefore, we questioned all
in-kind contributions for the entire audit period.

Coalition Against Domestic and Sexual Violence
Coalition Against Domestic and Sexual Violence could not provide support for 7 of 40
selected in-kind matching expenses for program years 1997-98, 1998-99 and 1999-2000.

Belknap-Merrimack Community Action Program
During program years 1997-98, 1998-99 and 1999-2000, Belknap-Merrimack
Community Action Program inappropriately recorded in-kind contributions for non-
member volunteers that provided services normally provided by members.

The AmeriCorps General Provisions state that subgrantees must maintain adequate
supporting documentation for every expenditure (federal and non-federal) and in-kind
contributions made under this grant. Costs must be shown in books or records (e.g., a
disbursement ledger or journal), and must be supported by a source document, such as a
receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

The AmeriCorps provisions also state that because the purpose of the Grant is to enable
and stimulate volunteer community service, the Grantee may not include the value of
direct community service performed by volunteers in kind. However, the Grantee may
include the value of volunteer services contributed to the organization for organizational
functions such as accounting, audit, and training of staff and AmeriCorps members.

B. Other Compliance Findings

8. Lack of documentation

           Criminal record check

The following subgrantees enrolled members who required a criminal record check;
however, sufficient documentation to support that a criminal record check was conducted
was not maintained. The AmeriCorps Special Provisions require that programs with
members or employees who have substantial contact with children (as defined by state
law) or who perform service in the homes of children or individuals considered
vulnerable by the program shall, to the extent permitted by state and local law, conduct
criminal record checks. The AmeriCorps Provisions require that this documentation be
maintained within member or employee files.
1 Subgrantee                             I    Member files    1     Applicable program
                                                 lacking                   years
                                             documentation/
                                               sample size
  Tri-County Community Action                    7 of 26             1997-98 & 1998-99
1 Program

            Position descriptions

 The AmeriCorps Special Provisions require that the subgrantee develop member position
 descriptions that provide for direct and meaningful service activities and performance
 criteria that are appropriate to the skill level of members. Activities may not include
 clerical work, research, or fund raising activities unless such activities are incidental to
 the member's direct service activities. The subgrantee must ensure that each member has
 sufficient opportunity to complete the required number of hours to qualify for a post-
 service education award. In planning for the member's term of service, the subgrantee
 must account for holidays and other time off, and must provide each member with
 sufficient opportunity to make up missed hours.

 The following subgrantees failed to maintain member files that included position
 descriptions as required above:

 Subgrantee                                   Member files          Applicable program
                                                lacking                    years

                                               sample size
 Belknap-Merrimack Community                     9 of 15            1997-98 & 1998-1999
 Action Program
 Student Conservation Association               10 of 20            1997-98 & 1998-1999
 Tri-County Community Action                    6 of 26           1997-98, 1998-99, & 1999-
 Program                                                                    2000

            Member contracts

 The AmeriCorps Special Provisions require that the subgrantee ensure that all members
 sign contracts that, at a minimum, stipulated the following:

        - The minimum number of service hours and other requirements (as developed
          by the program) necessary to successfully complete the term of service and to
          be eligible for the education award;
        - Acceptable conduct;
        - Prohibited activities;
        - Requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et seq.);
        - Suspension and termination rules;
       -   The specific circumstances under which a member may be released for cause;
       -   The position description;
       -   Grievance procedures; and
       -   Other program requirements.

The following subgrantees failed to maintain documentation to support that members had
signed contracts that included all required elements noted above.

Subgrantee                         Member files          Applicable program
                                      lacking                   years
                                  documentation/
                                    sample size
Lacking Documentation For: Member Contracts That Include All Required Elements
Tri-County Community Action            7 of 26                 1997-98


           Orientation

The AmeriCorps Special Provisions require that, consistent with the approved budget, the
subgrantee must provide members with the training, skills, knowledge and supervision
necessary to perform the tasks required in their assigned project positions, including
specific training in a particular field and background information on the community
served. The subgrantee must conduct an orientation for members and comply with any
pre-service orientation or training required by the Corporation. This orientation should
be designed to enhance member security and sensitivity to the community. Orientation
should cover member rights and responsibilities, including the program's code of
conduct, prohibited activities, requirements under the Drug-Free Workplace Act (41
U.S.C. 701 et seq.), suspension and termination from service, grievance procedures,
sexual harassment, other non-discrimination issues, and other topics as necessary.

The following subgrantees failed to maintain documentation to support that an orientation
was conducted forenrolled members.

Subgrantee                            Member files             Applicable program
                                          lacking                     years
                                    documentation/
                                       s a m ~ l esize
Lack of Documentation: Evidence of Orientation
Student Conservation Association     All for program                  1997-98
                                      vear 1997-98
Belknap-Merrimack Community          All for program                 All Years
Action Program                        years 1997-98
                                     though 2000-0 1
           Mid-term and end-of-term evaluations

 The following subgrantees could not locate mid-term and end-of-term evaluations for
 certain members that were selected for review. The AmeriCorps Provisions require that
 each subgrantee conduct at least a mid-term and end-of-tern written evaluation of each
 member's performance, focusing on such factors as:

    - Whether the member has completed the required number of hours;
    - Whether the member has satisfactorily completed assignments; and
    - Whether the member has met other performance criteria that were clearly
      communicated at the beginning of the term of service.

 Subgrantee                           Member files        Applicable program
                                         lacking                  years
                                     documentation1
                                       sample size
  Lacking Documentation For: Signed Mid-Term and/or End-of-Term Evaluations
  Coalition Against Domestic and          8 of 21     1 1997-98, 1998-99 & 1999-
  Sexual Violence                                                 2000
  Lacking Documentation For: Mid-Term and/or End-of-Term Evaluations
  Coalition Against Domestic and          8 of21      1 1997-98, 1998-99 & 1999-
  Sexual Violence                                                 2000
  Belknap-Merrimack Community             4 of 15          1997-98 & 1998-99
1 Action Program
             "                     1                  I                                   1
  Student Conservation Association       15 of 20     1 1997-98, 1998-99 & 2000-
                                                                   01
  Tri-County Community Action             7 of 26              All years
I Program                          I                  I                                   I
           Enrollment forms, change of status forms, and exit/end-of-term-of-service
           forms

 The AmeriCorps Special Provisions require the following documents from the grantee:

    - Enrollment Forms. State Commissions and parent organizations must submit
      member enrollment forms to the Corporation no later than 30 days after a member
      is enrolled.
    - Change of Status Forms. State Commissions and parent organizations must
      submit member change of status forms to the Corporation no later than 30 days
      after a member's status is changed. By forwarding member change of status
      forms to the Corporation, State Commissions and parent organizations signal their
      approval of the change.
    - ~xit/End-of-~erm-of-service     Forms. Programs must submit member exidend-
      of-term-of-service forms to the Corporation no later than 30 days after a member
      exits the program or finishes hislher term of service early.
 Certain standard forms required to be completed for members were not completed by the
 following subgrantees.

 Subgrantee                          Member files       Applicable program
                                        lacking                years
                                    documentation1
                                      sample size
 Lacking Documentation For: Approved and Dated Enrollment Form
 Coalition Against Domestic and          6 of 21        1997-98 & 1999-2000
 Sexual violence

 Lacking Documentation For: Approved ExitIEnd-of-Term Form
( Coalition Against Domestic and I      2 of 21     I                   1999-2000               I
 Sexual Violence
 Tri-County Community Action            1 of 26                         1999-2000
 Program

 Lacking Documentation For: Exit/End-of-Term form with Hours of Completion
                                                                                            I
 Tri-County Community Action             2 of 26                2000-0 1
 Program

            Timesheets to Support 1,700 Hours of Service

 The Subgrantee must maintain verifiable records which document each member's
 eligibility to serve based upon citizenship or lawful permanent residency, birth date, level
 of educational attainment, date of high school diploma or equivalent certificate (if
 attained), participation start date and end date, hours of service per week, location of
 service activities and project assignment. The records must be sufficient to establish that
 the individual was eligible to participate in the Program and that the member successfully
 completed the Program requirements with a minimum of 1,700 hours of participation as a
 full-time member, 900 hours of participation as a part-time member, or 300-900 hours of
 participation as a reduced part-time member.

 The following subgrantee failed to maintain timesheets to support members completed
 1,700 hour of service:

 Subgrantee                          Member files         Applicable program
                                         lacking                  years
                                    documentation1
                                       sample size
 Lacking Documentation For: Timesheets to Support 1,700 Hours of Completion
 Student Conservation Association         5 of 20          1997-98 & 1998-99
            Financial Status Reports (FSRs) and Progress Reports

According to the AmeriCorps Provisions, beginning in program year 1999-2000, FSRs
are due May 1 for the period ending March 3 1 and October 31 for the period ending
September 30. A grantee properly utilizing the Web-Based Reporting System (WBRS)
meets financial reporting requirements when the grantee uses that system to submit
reports within the approved time frames. A subgrantee must meet the submission
deadlines set by the grantee for accurate and timely reporting. Prior to program year
1999-2000, FSRs were due 30 days after the end of each calendar quarter.

A subgrantee completing the final year of its grant must submit, in lieu of the last semi-
annual FSR, a final FSR that is cumulative over the entire project period. This FSR is
due within 90 days after the end of the project period.

 A grantee completing the final year of its grant must submit, in addition to the Progress
 Report due on October 3 1, a final Progress Report that is cumulative over the entire
 project period. This progress report is due within 90 days after the close of the grant.

 The AmeriCorps Provisions also require that each grantee set its own subgrantee
 reporting requirements consistent with its need for timely and accurate reports. As such,
 the Commission required its subgrantees to submit quarterly progress reports within 30
 days of the end of the calendar quarter.

 The following subgrantees did not maintain copies of FSRs or progress reports, the FSR
 or progress report was not dated, or the reports were not submitted timely.

( Subgrantee                                        I Missing reports /sample I
                                                                size
 Lacking Documentation For: Timely Submission of FSR
 Coalition Against Domestic and Sexual Violence I    7of 10
 Belknap-Merrimack Community Action                  6of 14
 Program

 Lacking Documentation For: Final FSRs and Final Progress Reports
 Coalition Against Domestic and Sexual Violence          1 of 1
 Tri-Countv Communitv Action Program                     1 of 1
 Student Conservation Association                        1 of 1
                                                    I


 Lacking Documentation For: Timely submission of progress reports
 Coalition Against Domestic and Sexual Violence         3of4
 Belknap-Merrimack Community Action                     3of3
 Program
 Tri-County Community Action Program                      All
9. Lack of Adequate Internal Controls

According to the AmeriCorps Provisions, "The Grantee must maintain financial
management systems that include standard accounting practices, sufficient internal
controls, a clear audit trail and written cost allocation procedures as necessary."

We identified lack of internal controls at the following subgrantees:

The Student Conservation Association
The Student Conservation Association's Senior Finance Assistant maintains the ability to
post cash receipt journal entries in the accounting system, make the daily bank deposits,
and prepare bank reconciliations. Proper segregation of duties requires these tasks to be
performed by separate personnel. In addition, the Budget and Finance Analyst maintains
the ability to transmit employees' hours to ADP online, receives payroll checks, reviews
the payroll summary sent by ADP, and approves the payroll expense journal entry
without any supervisory review.

The Student Conservation Association keeps blank checks in an unlocked cabinet in the
finance department area. In addition, the Finance Controller does not keep track of the
issued check sequence.

Tri-County Community Action Program
The administrative entity's Administrative Assistant and the Bookkeeper are responsible
for posting the employees' hours in the accounting system, distributing payroll checks,
and making changes to the employees' pay rates. Thus, no proper segregation of duties
exists for personnel processing payroll and distributing checks. In addition, there is no
adequate review performed over changes made in the accounting system related to pay
rates. We noted no evidence that bank reconciliations are reviewed. Bank reconciliations
are not signed by either the preparer or the reviewer. Also, bank reconciliations for the
period from October 1, 1997, to June 30, 1998, were destroyed in accordance with Tri-
County Community Action Program's retention policy, which is not compliant with the
AmeriCorps provisions.

10. Other exceptions to program compliance.

Student Conservation Association
The Student Conservation Association did not maintain a documented process for filing
and adjudicating grievances from labor organizations or other interested parties
concerning project or program operations. In addition, the administrative entity does not
maintain written agreements with partnering agencies that specifically address employee
displacement or service duplication.

Tri-County Community Action Program
The Tri-County Community.Action Program did not maintain a documented process for
filing and adjudicating grievances from labor organizations or other interested parties
concerning project or program operations.
According to the AmeriCorps Provisions, the Grantee must establish and implement a
process for filing and adjudicating grievances from members, labor organizations and
other interested parties. A grievance process may include dispute resolution programs
such as mediation, facilitation, assisted negotiation and neutral evaluation. A grievance
process must provide an opportunity for a grievance hearing and binding arbitration. If
the grievance alleges fraud or criminal activity, it must be brought to the attention of the
Inspector General of the Corporation immediately. Discrimination complaints may also
be raised through the grievance procedure.

According to the AmeriCorps Provisions, grant funds may not be used to duplicate
services that are available in the locality of a program or project. The Grantee may not
conduct activities that are the same or substantially equivalent to activities provided by a
state or local government agency in which the Grantee entity resides. In addition, the
Grantee may not displace an employee or position, including partial displacement such as
reduction in hours, wages or employment benefits, because of the use by such employer
of a member in a program or project.

Coalition Against Domestic and Sexual Violence
During the program years under audit, the Coalition received approximately $55,000 in
excess of claimed expenditures and has not returned the funds or the interest earned to the
Corporation. However, the Coalition has attempted to return the money to the
Commission without success. It has maintained the funds in an interest-bearing bank
account.

The AmeriCorps Provisions state that the Grantee may receive advance payments of
Grant funds, provided the Grantee meets the financial management standards specified in
OMB Circular A-102 and its implementing regulations or A-1 10 and its implementing
regulations, as applicable. If the Grantee does not establish procedures to minimize the
time elapsing between the receipt of the cash advance and its disbursement, the
Corporation may, after providing due notice to the Grantee, discontinue the advance
payment method and allow payments in advance only by individual request and approval,
or by reimbursement. The Grantee must deposit advance funds received from the
Corporation in federally insured, interest-bearing accounts.

In addition, prior to April 1999, the Coalition Against Domestic and Sexual Violence's
accounting system was incapable of adequate fund accounting. As a result, the Coalition
had to manually track expenditures. Although the current accounting system is capable
of budgetary accounting, the Coalition Against Domestic and Sexual Violence has not
implemented the budget module, making it difficult to track and analyze actual
expenditures against the approved budget.

The Grantee must maintain financial management systems that include standard
accounting practices, sufficient internal controls, a clear audit trail and written cost
allocation procedures as necessary. Financial management systems must be capable of
distinguishing expenditures attributable to this Grant from expenditures not attributable to
this Grant. This system must be able to identify costs by programmatic year and by
budget category and to differentiate between direct and indirect costs or administrative
costs.
       Recommendations Related to the AmeriCorps Grant

Except as otherwise noted, for all compliance findings and questioned costs discussed
above related to the AmeriCorps grant, we recommend the following:

   The Corporation should follow up with the Commission to determine whether the
   questioned amounts should be disallowed and recovered.
   The Corporation should issue guidance to clarify what is meant by a final FSR to
   ensure that subgrantees understand when the 3-year retention period specified in the
   AmeriCorps Provisions begins.
   The Commission should provide additional guidance to existing subgrantees on
   record retention and documentation standards for such items as eligibility, time
   sheets, member service hours, AmeriCorps roster updates on member status, other
   claimed costs submitted for reimbursement, matching costs reported, and
   contributions received. The Commission should then verify subgrantee compliance
   with this guidance during periodic site visits.
   The Commission should enhance its policies and procedures for review of subgrantee
   member support and program operating matching requirements to ensure compliance.
   The Commission should ensure that current subgrantees have developed and
   implemented procedures that prevent administrative costs claimed from exceeding the
   maximum percentage allowable in each program year, and require prior written
   approval for budgetary transfers, when applicable.
   The Commission should ensure that current subgrantees have developed and
   implemented periodic budget to actual monitoring procedures for the AmeriCorps
   grant to ensure costs charged against it are reasonable given the amount of the grant
   period that has expired.
   The Commission should require existing subgrantees to document and adhere to file
   maintenance procedures that will ensure compliance with the AmeriCorps Provisions.
   Procedures should include, where applicable, a checklist for all required
   documentation, a training program for personnel who are responsible for maintenance
   of member files, and a periodic review process where selected member files are
   checked for compliance with documented procedures. The Commission should
   verify subgrantee compliance with these file maintenance procedures during periodic
   site visits.
   The Commission should assist subgrantees in developing sufficient internal controls
   that provide (1) proper segregation of duties, (2) appropriate approvals, (3) security of
   assets, (4) appropriate review, and (5) maintenance of supporting documentation that
   complies with the AmeriCorps provisions.
   The Commission should ensure that subgrantees have implemented policies and
   procedures that are consistent with the AmeriCorps provisions.
Administrative, Program Development and Training (PDAT), Martin Luther King
Program (MLK), Governor's Innovative Program, Promise Fellows, and State
Disability Awards

The following findings are a result of compliance audit work performed at the New
Hampshire Commission level related to the Administrative, PDAT, MLK, Governor's
Innovative Program, Promise Fellows, and State Disability Awards. As indicated below,
we questioned the majority of costs claimed for the period under audit related to the
program years when JTC had administrative responsibility of the Commission. These
questioned costs result primarily from a lack of financial records and supporting
documentation. However, to the extent other records were available, we performed other
tests of compliance as required by the Audit Program for Full Scope Incurred Cost Audit
of Corporation Awards with Subrecipients. Those findings, many of which are similar to
the pre-audit survey findings, are presented in the following paragraphs as they relate to
both JTC and Volunteer NH!.

C. Compliance Findings Resulting in Questioned Costs

The specific amounts questioned related to the findings discussed below are included in
the Schedules of Award Costs at Exhibits B through G, and in the Summary of
Questioned Costs included as Note 2 to the Consolidated Schedule of Award Costs. Note
2 reconciles the amounts identified as questioned costs in the following paragraphs to the
consolidated amounts of questioned costs reflected in Exhibits C and D.

11. Documentation to support expenses claimed under the grant was not maintained
    (Questioned Claimed Cost of $671,885 and Questioned Match Amounts of $257,264).

The Commission was unable to provide a Schedule of Award Costs related to program
years 1997-98 through September 2000 because adequate supporting financial records
and supporting documentation was not maintained. Therefore, we questioned $203,539
of PDAT expenses, $333,525 of Administrative expenses, $61,401 of Promise Fellows
expenses, $7 1,420 of Governor's Innovative Program expenses, and $2,000 of Martin
Luther King expenses incurred during those periods. We also questioned $257,264 of
PDAT matching expenses.

Per the Administrative and PDAT Grant General Provisions, the Grantee must retain and
make available to the Corporation upon request all financial records, supporting
documentation, statistical records, evaluation data, participant information, and personnel
records for 3 years from the date of the submission of final Financial Status Report, or if
any audit is started prior to the expiration of the 3 year period, the records shall be
retained until the audit findings involving the records have been resolved and final action
has been taken. The Grantee has full fiscal and programmatic responsibility for
managing all aspects of grant and grant-supported activities, subject to the oversight of
the Corporation. The Grantee is accountable to the Corporation for its operation of the
AmeriCorps Program and the use of Corporation grant funds. It must expend grant funds
in a judicious and reasonable manner.
        Recommendation

We recommend that the Commission enhance its record-keeping procedures to ensure
that supporting documentation for its expenses is maintained as required by the OMB
Circulars and the grant agreement.

 12. Documentation to support selected expenditures claimed under the grant was not
     maintained (Questioned Claimed Cost of $37,418).

The Commission was unable to provide documentation that supported the existence
andlor reasonableness of selected payments claimed for reimbursement from the
Corporation under the Administrative grant, as follows:

 Category of Cost      Payee                           Amount          Program Year
 Communications        Postmaster                       $505              2000-0 1
 Suvulies              Andrea Walsh                     $505              2000-0 1

 The Commission was unable to provide documentation that supported the existence
 andlor reasonableness of selected payments claimed for reimbursement from the
 Corporation under the PDAT grant, as follows:

I Category of Cost 1 Payee                         I   Amount      I   Program Year       I
                       New Hampshire Job
                       Training Council                  $35,639   1     1999-2000


 In addition, the Commission made one disbursement under the Disability award for
 $1,619 based on an estimate for services. However, when the service was completed, the
 final invoice was for $850. The Commission did not receive a refund from the vendor,
 therefore we question the non-refunded difference of $769.

 Office of Management and Budget (OMB) Circular A-87, Cost Principles for State,
 Local, and Indian Tribal Governments, states "To be allowable under Federal awards,
 costs must.. .be adequately documented."

        Recommendation

 We recommend that the Commission enhance its record-keeping procedures to ensure
 that supporting documentation for its expenses is maintained as required by the OMB
 Circulars and the grant agreement.

 13. Approvals for budget modifications were not obtained (Questioned costs of $3,685).

 Volunteer NH! overspent several budget line items for the Administrative grant that
 resulted in cumulative budget transfers exceeding 10% of the approved budget ($14,609).
 No prior approvals were obtained from the Corporation for these budget changes. Budget
 transfers include $8,103 for Travel, $7,820 for Operating Costs, and $2,371 for Other,
totaling $18,294. Therefore, we questioned transferred amounts in excess of $14,609,
which is 10% of the approved budget.

Per the 2001 Administrative Provisions, "Changes in the budget. The Grantee must
obtain the prior written approval of the Corporation before deviating from the approved
budget in any of the following ways.. .Unless waived by the awarding agency,
cumulative transfers among direct cost categories, or, if applicable, among separately
budgeted programs, projects, functions, or activities, which exceed or are expected to
exceed ten percent of the current total approved budget, whenever the awarding agency's
share exceeds $100,000."

       Recommendation

We recommend that Volunteer NH! develop and implement policies and procedures to
obtain prior written approval for changesltransfers between budget line items, when
required by grant provisions.

14. Matching contributions claimed were not properly supported (Questioned Match of
    $2,549).

The Commission could not provide supporting documentation for one in-kind matching
contribution selected for testing (donor - Lenny Bernard, $2,000 claimed as in-kind
match).

The Commission also claimed a $549 matching disbursement to the Administrative grant
that was determined to be unallowable to the program as a matching expense.

       Recommendation

We recommend that the Commission enhance its record-keeping procedures to ensure
that supporting documentation for its expenses is maintained as required by the OMB
Circular and the grant agreement.

D. Other Compliance Findings

15. Subgrantee Selection Process

As part of the application process, JTC began to conduct fiscal screenings of new
applicants in 1998-99. This fiscal screening consisted of the review of Office of
Management and Budget (OMB) Circular A-133 audit reports by JTC's Fiscal
Department. However, no documentation could be provided to demonstrate that JTC's
Fiscal Department reviewed these reports or conducted any other pre-selection fiscal
review.

In program year 1999-2000, as part of the evaluation process for renewal applicants, JTC
began using fiscal site visits and Financial Status Report (FSR) Reviews, in addition to
screening using the OMB Circular A-133 reports. However, no similar control over
renewal applicants' financial systems appears to have been in place for 1997-98 and
1998-99 as part of the subgrantee selection process.

JTC was unable to locate the FSR Review for Natural Resource Protection & Community
Preparedness for July 1 - September 30, 1999.

In addition, JTC was unable to provide documentation supporting the selection process
for 4 of 5 AmeriCorps applicants selected (NH PARKS 1998-99, North Country 1998-99,
Natural Resource Protection & Community Preparedness 1997-98, and NH READS
 1997-98).

Per OMB Circular A- 133 Subpart C, "The auditee shall maintain internal control over
Federal programs that provide reasonable assurance that the auditee is managing Federal
awards in compliance with laws, regulations, and the provisions of contracts or grant
agreements that could have a material effect on each of its Federal programs."

The AmeriCorps Provisions state, "The grantee must maintain financial management
systems that include standard accounting practices, sufficient internal controls, a clear
audit trail and written cost allocation procedures as necessary."

Per OMB Circular A-1 33 Subpart D, "A pass-through entity shall perform the following
for the Federal award it makes.. .3) Monitor the activities of subrecipients as necessary to
ensure that Federal awards are used for authorized purposes in compliance with laws,
regulations, and the provisions of contracts or grant agreements and that performance
goals are achieved."

       Recommendation

No recommendation is considered necessary as the administrative entity no longer exists.

16. Reporting Compliance

Of 6 Administrative grant FSRs selected for testing for JTC, 4 were not submitted timely.
In addition, of 6 PDAT grant FSRs selected for testing, 2 could not be located and 1 was
not signed or dated.

The Commission did not submit a final FSR for JTC upon its dissolution in September
2000.

According to Grant Provisions, section 1l(c): "Financial reports shall be submitted
quarterly on the Financial Status Report form SF 269 or SF269A. Reports are due 30
days after the end of the calendar quarters of March 3 1, June 30, September 30 and
December 3 1."

Volunteer NH! did not submit Annual Financial Reports for program years 1999-2000
and 2000-2001 as required by the Administrative provisions.
Per the 2001 Admin Provisions "Annual Financial Reports shall be submitted within 90
days of completion and will compare actual expenditures to budgeted amounts using the
line item categories in the grant budget form."

       Recommendation

We recommend that the Commission and/or Volunteer NH! continue its implementation
of procedures to ensure that FSRs submitted to the Corporation are complete, accurate,
and timely.

17. Subgrantee Monitoring

Of a sample of 7 programmatic JTC site visit reports, 5 documented that interviews
occurred with members and host site personnel, but did not document the actual results of
the interviews. These interviews are intended to determine if AmeriCorps members were
performing prohibited activities and if the activities performed were in accordance with
the intent of the grant.

Before program year 1998-99, JTC's site visit documentation indicated that member files
were reviewed during site visits, but no results of or procedures performed related to
member file reviews were identified. During program year 1998-99, while separate
forms were used to perform member file reviews, no formal procedures or instructions
related to these reviews were part of the site monitoring tool or the monitoring process
guidance.

The Code of Federal Regulations states that, "Grantees are responsible for managing the
day-to-day operations of grant and subgrant supported activities. Grantees must monitor
grant and subgrant supported activities to assure compliance with applicable Federal
requirements and that performance goals are being achieved. Grantee monitoring must
cover each program, function or activity."

       Recommendation

No recommendation is considered necessary, as the administrative entity no longer exists.

18. Site Visit Schedules

The Commission was unable to provide the JTC schedule of site visits to be performed or
list of site visits that were performed in program years 1998-99 and 1999-2000.

According to A Reference Manual for Commission Executive Directors and Members,
"Commissions must evaluate whether subgrantees comply with legal, reporting, financial
management and grant requirements and ensure follow through on issues of non-
compliance."
       Recommendation

No recommendation is considered necessary, as the administrative entity no longer exists.

19. Review of Progress Reports

Progress reports prepared by JTC for program years 1998-99 and 1999-2000 were not
reviewed by someone other than the preparer prior to submission. In addition, the data
submitted by the subgrantees, which is used to compile the Commission progress report,
was not specifically tested and a methodology for testing the data submitted was never
formalized.

Per the PDAT and Administrative general grant provisions, which apply to the period of
1997 to 2000:

"The Grantee has full fiscal and programmatic responsibility for managing all aspects of
grant and grant supported activities, subject to the oversight of the Corporation. The
Grantee is accountable to the Corporation for its operation of the AmeriCorps Program
and the use of Corporation grant funds."

       Recommendation

No recommendation is considered necessary, as the administrative entity no longer exists.

20. Expenditure Class$ication

Of 53 invoices tested for the 2000 and 2001 Administrative grants, the following
expenditure was misclassified as supplies in the general ledger when it should have been
recorded as a retirement expense.



   Grant        Cost Category           Date         Description      Amount

 Admin 01          Supplies           05/25/01      TIAACREF        $750.00

Of 44 invoices tested for the 2000 and 2001 PDAT grants, 7 expenditures were
misclassified on the schedule of award costs as salaries and expense when they were
travel related reimbursements. In addition, another expenditure was misclassified in the
general ledger as a telephone expense when it related to contracted financial management
services.
    Grant         Cost Category         Date              Payee           Amount

 PDAT 01       Other                              GSMR

 PDAT 01       Travel PDAT                        Andrea Walsh

 PDAT 01       Travel PDAT                        Alexis Walker

 PDAT 01       Mileage PDAT                       Andrea Walsh

 PDAT 01       Staff Program Dev.                 J. Milliken

 PDAT 00       Travel PDAT                        Andrea Walsh

 PDAT 00       Staff Program Dev.                 Lessons in Learning

 PDAT 00       Mileage PDAT                       Andrea Walsh

In order to meet the reporting requirements of the grants, actual costs should be reported
in the proper cost categories by program year, according to the approved budgets.

       Recommendation

We recommend that Volunteer NH! enhance its current procedures to ensure that
expenditures are properly classified in the accounting system so that financial reporting
and budget to actual comparisons are accurate.

Other Procedures

We inquired of the Commission, and its subgrantees selected for audit, about their
awareness of the Corporation's GPRA goals and whether the Commission had provided
specific information to the subgrantees related to the goals. However, the Commission
staff was not specifically knowledgeable of the GPRA. Of the subgrantees that we
audited, the program directors were not specifically aware of GPRA. However, these
subgrantees do submit periodic progress reports describing their accomplishments against
their goals.
RESPONSIBILITIES

Management's Responsibility

The New Hampshire Commission for National and Community Service is responsible
for:

       preparing FSRs in accordance with the terms and conditions of its grant awards
       from the Corporation. These reports provide the information that is used to
       prepare the Schedules of Award Costs;

       establishing and maintaining internal controls over financial reporting; and

       complying with laws and regulations, including those related to monitoring of its
       subgrantees.

In fulfilling its responsibilities, management's estimates and judgments are required to
assess the expected benefits and related costs of internal control policies.

Auditors' Responsibility

Our responsibility is to issue our report on the Schedules of Award Costs.

Although our report included a disclaimer of opinion on the Schedules of Award Costs,
we conducted our incurred cost audit in accordance with auditing standards generally
accepted in the United States of America, Government Auditing Standards issued by the
Comptroller General of the United States, and the Audit Program for Full Scope Incurred
Cost Audit of Corporation Awards with Subrecipients (the Audit Program), issued by the
Corporation's Office of Inspector General. Those standards and the Audit Program
require that we plan and perform the audit to obtain reasonable assurance about whether
the amounts claimed against the award, as presented in the Schedules of Award Costs
(Exhibits A through G), are free of material misstatement.

An audit includes:

       examining, on a test basis, evidence supporting the amounts and disclosures in the
       Schedules;
       assessing the accounting principles used and significant estimates made by
       management; and
       evaluating the overall Schedules of Award Costs presentation.

In planning and performing our incurred cost audit, we considered the Commission's
internal control over financial reporting by obtaining an understanding of the
Commission's internal controls, determining whether these internal controls have been
placed in operation, assessing control risk, and performing tests of controls in order to
determine our auditing procedures for the purpose of expressing our opinion on the
Schedules. We limited our internal control testing to those controls necessary to achieve
the objectives described in Government Auditing Standards.

As part of obtaining reasonable assurance about whether the Schedules of Award Costs
are free of material misstatement, we performed tests of the Commission's compliance
with certain provisions of applicable laws, regulations and provisions of the
Corporation's grant agreements, noncompliance with which could have a direct and
material effect on the determination of Schedule amounts. We limited our tests of
compliance to these provisions and did not test compliance with all laws and regulations
applicable to the Commission.

We provided a draft of this report to the Commission and Corporation. The responses
from the Commission's current administrative entity, Volunteer NH!, the State of New
Hampshire, Office of the Governor, and the Corporation are included as Appendix A, B
and C, respectively.

DISTRIBUTION

This report is intended solely for the information and use of the Office of the Inspector
General and management of the Corporation for National and Community Service, the
management of the Volunteer NH!, the New Hampshire Governor's Office, and the
United States Congress and is not intended to be and should not be used by anyone other
than these specified parties.




April 12, 2002
                                                                                             Exhibit H-1

                   New Hampshire Commission on National and Community Service
                            Tri-County Community Action Program
                                   Schedule of Award Costs
                           From September 1,1997 to August 31,2001

                                                Approved          Claimed       Questioned
               Cost Category                     Budget            Costs          Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
  Other
Subtotal

Other Member Costs:
  Training & Education
   Uniforms
   Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operational:
 Travel
  Corporation Sponsored Meeting
  Supplies
 Transportation
  Equipment
  Other
Subtotal

Internal Evaluation

Administration

Difference Between GL and Schedule

Adjustment to Agree General
Ledger to FSRs:

Federal Costs Claimed in Excess
of Approved Percentage:
   Section A
   Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                             Exhibit H-2


                           New Hampshire Commission on National and Community Service
                                        Student Consewation Association
                                            Schedule of Award Costs
                                   From September 1,1997 to August 31,2001

                                               Approved          Claimed        Questioned
               Cost Category                    Budget            Costs           Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
  Other
Subtotal

Other Member Costs:
   Training & Education
   Uniforms
   Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operational:
 Travel
  Corporation Sponsored Meeting
  Supplies
  Transportation
  Equipment
  Other
Subtotal

Internal Evaluation

Administration

Difference Between GL and Schedule

Adjustment to Agree General
Ledger to FSRs:

Federal Costs Claimed in Excess
of Approved Percentage:
   Section A
   Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                                   Exhibit H-3

                               New Hampshire Commission on National and Community Service
                                    The Coalition Against Domestic and Sexual Violence
                                                 Schedule of Award Costs
                                        From September 1,1997 to August 31,2001

                                                 Approved            Claimed          Questioned
               Cost Category                      Budget              Costs             Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
  Other
Subtotal

Other Member Costs:
  Training & Education
   Uniforms
  Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operational:
 Travel
  Corporation Sponsored Meeting
  Supplies
 Transportation
 Equipment
 Other
Subtotal

Internal Evaluation

Administration

Difference Between GL and Schedule

Adjustment to Agree General
Ledger to FSRs:

Federal Costs Claimed in Excess
of Approved Percentage:
   Section A
   Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                                      Exhibit H-4

                               New Hampshire Commission on National and Community Service
                                     Community Action Belknap-Merrimack County
                                               Schedule of Award Costs
                                       From September 1,1997 to August 31,2001

                                                 Approved           Claimed           Questioned
               Cost Category                      Budget             Costs              Costs

Member Support Costs:
  Living Allowance                               $    698,318                         $     38,645
  FICA & Workers Comp.                                 61,249                                3,320
  Health Care                                          77.1 20                               3,983
  Other                                                     0                                    0
Subtotal                                              836,687                               45,948

Other Member Costs:
   Training & Education                                20,683                                 1,332
   Uniforms                                             1,566                                   160
   Other                                                    0                                     0
Subtotal                                               22,249                                 1,492

Staff:
   Salaries                                           139,053                                 6,677
   Benefits                                            44,468                                     0
   Training                                               904                                     0
   Other                                                    0                                     0
Subtotal                                              184,425                                 6,677

Operational:
 Travel                                                12,113                                    0
  Corporation Sponsored Meeting                         2,000                                    0
  Supplies                                              6,830                                    0
 Transportation                                       118,621                                    0
 Equipment                                                  0                                    0
  Other                                                     0                                    0
Subtotal                                              139,564                                    0

Internal Evaluation                                     1,000                                    0

Administration                                         23,976                                    0

Difference Between GL and Schedule                                                            1,627

Adjustment to Agree General
Ledger to FSRs:                                             0                                  948

Federal Costs Claimed in Excess
of Approved Percentage:
   Section A                                                0                               54,767
   Section B-F                                              0                               37,027

Total Corporation Funds:                             1,207,901                              148,486

Total Matching Funds:                                 819,942                                11,599

Total Funds:                                     $ 2,027,843                          $     160,085
                                                                                             Exhibit H-5

                           New Hampshire Commission on National and Community Service
                                                  Plus Time NH
                                      Schedule of Award Costs (Unaudited)
                                   From September 1,2000 to August 31,2001

                                               Approved            Claimed      Questioned
               Cost Category                    Budget              Costs         Costs

Member Support Costs:
  Living Allowance                                             $     57,788
  FICA & Workers Comp.                                                5,992
  Health Care                                                         4,609
  Other                                                                   0
Subtotal                                                             68,389

Other Member Costs:                                                       0
  Training & Education                                                    0
   Uniforms                                                               0
   Other                                                                  0
Subtotal                                                                  0

Staff:
   Salaries                                                          18,383
   Benefits                                                           2,768
   Training                                                               0
   Other                                                                  0
Subtotal                                                             21,151

Operational:
  Travel                                                                833
  Corporation Sponsored Meeting                                           0
  Supplies                                                                0
 Transportation                                                           0
  Equipment                                                               0
  Other                                                                 620
Subtotal                                                              1,453

Internal Evaluation                                                       0

Administration                                                        8,638

Difference Between GL and Schedule                                        0

Adjustment to Agree General
Ledger to FSRs:                                                          0

Federal Costs Claimed in Excess
of Approved Percentage:
   Section A                                                             0
   Section B-F                                                           0

Total Corporation Funds:                                             99,631

Total Matching Funds:                                                36,808

Total Funds:                                                   $    136,439
                                                                                     Exhibit H-6


                      New Hampshire Commission on National and Community Service
                                              City Year
                                 Schedule of Award Costs (Unaudited)
                                  From June 1,2000 to June 30,2001

                                           Approved        Claimed      Questioned
               Cost Category                Budget          Costs         Costs

Member Support Costs:
  Living Allowance                         $    95,550
  FICA & Workers Comp.                           9,310
  Health Care                                    8,933
  Other                                              0
Subtotal                                       113,793

Other Member Costs:
  Training & Education                           3,450
   Uniforms                                          0
   Other                                             0
Subtotal                                         3,450

Staff:
   Salaries                                     96,750
   Benefits                                     17,899
   Training                                        188
   Other                                             0
Subtotal                                       114,837

Operational:
 Travel                                              0
 Corporation Sponsored Meeting                   2,000
  Supplies                                       5,000
 Transportation                                 13,050
 Equipment                                           0
 Other                                          11,194
Subtotal                                        31,244

Internal Evaluation                              3,444

Administration                                  14,032

Difference Between GL and Schedule                  0

Adjustment to Agree General
Ledger to FSRs:                                     0

Federal Costs Claimed in Excess
of Approved Percentage:
   Section A                                         0
   Section B-F                                       0

Total Corporation Funds:                       280,800

Total Matching Funds:                          366,022

Total Funds:                               $ 646,822
                                                                                         Exhibit H-7


                        New Hampshire Commission on National and Community Service
                                  New Hampshire Resource Conservation
                                   schedule-of Award Costs (Unaudited)
                               From December 1,2000 to December 31,2001

                                            Approved       Claimed          Questioned
              Cost Category                  Budget         Costs             Costs

Member Support Costs:
  Living Allowance                          $ 229,500      $ 84,024                  0
  FICA & Workers Comp.                         25,206         11,049                 0
  Health Care                                  23,550          3,558                 0
  Other                                         2,244              0                 0
Subtotal                                      280,500         98,631                 0

Other Member Costs:
  Training & Education                          2,758              0                 0
   Uniforms                                                        0                 0
  Other                                                            0                 0
Subtotal                                        2,758              0                 0

Staff:
   Salaries                                    30,826         16,703                 0
   Benefits                                         0              0                 0
   Training                                         0              0                 0
   Other                                            0              0                 0
Subtotal                                       30,826         16,703                 0

Operational:
 Travel                                         5,025          1,413                 0
  Corporation Sponsored Meeting                 1,340              0                 0
  Supplies                                      6,527             71                 0
 Transportation                                 6,700            180                 0
  Equipment                                         0              0                 0
  Other                                             0             10                 0
Subtotal                                       19,592          1,674                 0

Internal Evaluation                                 0              0                 0

Administration                                 16,750          6,288                 0

Difference Between GL and Schedule                  0              0                 0

Adjustment to Agree General
Ledger to FSRs:                                     0              0                 0

Federal Costs Claimed in Excess
of Approved Percentage:
   Section A                                        0              0                 0
   Section B-F                                      0              0                 0

Total Corporation Funds:                      350,426                                0

Total Matching Funds:                         278,504                                0

Total Funds                                 $ 628,930
                                                                                             Exhibit H-8

                           New Hampshire Commission on National and Community Service
                                 North Country Resource Consewation and Dev.
                                      Schedule of Award Costs (Unaudited)
                                   From January 1 1,1997 to March 31,2001

                                               Approved            Claimed      Questioned
               Cost Category                    Budget              Costs         Costs

Member Support Costs:
  Living Allowance                             $221,671        $     163,382            0
  FICA & Workers Comp.                           24,494               19,167            0
  Health Care                                    24,344               12,924            0
  Other                                               0                    0            0
Subtotal                                        270,509              195,473            0

Other Member Costs:
  Training & Education                             2,995               2,229            0
   Uniforms                                          344                 178            0
   Other                                               0                                0
Subtotal                                           3,339                                0

Staff:
   Salaries                                       22,456                                0
   Benefits                                        1,206                                0
   Training                                            0                                0
   Other                                               0                                0
Subtotal                                          23,662                                0

Operational:
  Travel                                           2,407                                0
  Corporation Sponsored Meeting                    2,000                                0
  Supplies                                         3,046                                0
  Transportation                                  16,345                                0
  Equipment                                        5,240                                0
  Other                                              384                                0
Subtotal                                          29,422

Internal Evaluation                                 100

Administration                                    17,590

Difference Between GL and Schedule                    0

Adjustment to Agree General
Ledger to FSRs:                                       0

Federal Costs Claimed in Excess
of Approved Percentage:
   Section A                                          0
   Section B-F                                        0

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                           Exhibit 1-1


                 New Hampshire Commission on National and Community Service
                                          -
                           Volunteer NH! Administrative Award
                                 Schedule of Award Costs
                        From September 1,2000 to December 31,2001

                                         Approved           Claimed           Questioned
            Cost Category                 Budget             Costs              Costs

Staff
   Salaries
   Benefits
   Other
Subtotal

Travel:
  Commissioners
  Staff
  Other
Subtotal

Subcontracts/Grants/Agreements:
Contracts
Subtotal

Operating Costs:
 Supplies
 Equipment
 Communications
 Space
Subtotal

Amount Questioned in Excess of
10%of the Approved Budget:

Adjustment to Agree General Ledger
to FSRs:

Total Corportation Funds

Total Matching Funds

Total Funds
                                                                                                Exhibit 1-2


              New Hampshire Commission on National and Community Service
                                              -
                     Job Training Council Administrative Award
                               Schedule of Award Costs
                      From September 1,1997 to August 31,2000

                                     Approved                 Claimed             Questioned
     Cost Category                    Budget                   Costs                Costs

Total Corporation Funds             $   397,837           $    333,525           $    333,525

Total Match Funds

Total Funds

Note: A line item break-out of budgeted and claimed administrative costs for the period under
audit was not available.
                                                                                         Exhibit J-1


               New Hampshire Commission on National and Community Service
                              -
                Volunteer NH! Program Development and Training (PDAT)
                           Consolidated Schedule of Award Costs
                       From September 1,2000 to December 31,2001


                                          Approved       Claimed            Questioned
           Cost Category                   Budget         Costs               Costs

Program Staff
    Salary & Benefits                     $   38,316     $   48,460

Program Staff Development                      8,500          2,856

Consultants                                    2,000              0

Training Events                               32,384         53,373

Sub-contracts, Sub-grants                      2,300          2,300

Communication - Systems                           0               0

Supplies                                          0               0

Other                                          5,500         39,200

Research                                          0          10,000

Adjustment to Agree General
Ledger to FSR:                                    0          (18,020)

Total Corporation Funds                   $ 161,702      $ 138,169



                                      0
                                                                      Exhibit 5-2


      New Hampshire Commission on National and Community Service
     Job Training Council - Program Development and Training (PDAT)
                         Schedule of Award Costs
                From September 1,1997 to August 31,2000


                  Approved            Claimed      Questioned
                   Budget              Costs         Costs

Corporation Funds $   528,576     $    203,539     $   203,539
                                                                                                            Exhibit K-1


            New Hampshire Commission on National and Community Service
                                            -
                      Voluteer NH! Promise Fellows Award
                       Schedule of Award Costs (Unaudited)
                   From November 1,1999 to December 31,2001


                               Approved              Claimed             Questioned
                                Budget                Costs                Costs

Corporation Funds             $    86,220           $   99,813                       0




Note: The Volunteer New Hampshire! Promise Fellows award was not audited. However, during our
preparation of above schedule we noted that the amount claimed exceeds the revised budgeted grant amount.
In September, 2001 the Corporation reduced the Commission's approved grant, after the initially approved
budgeted amount had already been expended.
                                                                      Exhibit K-2


         New Hampshire Commission on National and Community Service
                                    -
                Job Training Council Promise Fellows Award
                          Schedule of Award Costs
                   From Novemver 1,1998 to May 31,2000


                        Approved         Claimed       Questioned
                         Budget           Costs          Costs

Corporation Funds
                                                                                 Exhibit L

                            Status of Findings from
 OIG Audit Report #00-19, Pre-Audit Survey of the New Hampshire Commission on
                       National and Community Service


The Commission did not begin to implement significant corrective action related to the
pre-audit survey findings until September 2000, after the administrative entity changed
from The Job Training Council to Volunteer NH!. We reviewed action taken by the
Commission through April 2002 on the findings.

Selecting Subgrantees

Consideration of Prior Evaluations by Selection Officials in the Renewal Application
Process

"A panel of three Commission Board members and one member of the community
evaluate applicants and make approvallrejection decisions. Commission personnel
provide information to these selection officials for each applicant. If the Commission has
funded an applicant in a previous year, Commission personnel verbally communicate key
aspects of program evaluations to the selection officials during a pre-selection meeting.
However, the content of this verbal communication can vary significantly from applicant
to applicant because Commission subgrantee selection procedures do not identify what
information should be communicated to selection officials for each previously funded
applicant. As a result, Commission personnel may provide certain information to the
selection officials about one previously funded applicant, but omit that information in
their communications about other previously funded applicants. If similar information is
not consistently communicated about each previously funded applicant, then the fairness
of the selection process may be impaired and Commission personnel may unintentionally
bias the selection officials."

Assessment of Applicants' Financial Systems during the Selection Process

"Selection officials do not consider the adequacy of the applicants' financial systems
during the Commission's subgrantee selection process. The application form provided by
the Corporation does not specifically address the applicant's financial systems.
Commission selection procedures do not require Commission personnel to request from
the applicants additional information related to their financial systems. As a result, grant
funds may be provided to an organization that does not have financial systems in place to
properly account for those funds or to ensure compliance with related grant
requirements."

Lack of Formal Conflict of Interest Statements

"According to A Reference .Manual for Commission Executive Directors and Members,
section 3.6, "State Commissions should strive to achieve the greatest objectivity and
impartiality possible in the review and selection of grantees in the state...Any time a
                                                                                  Exhibit L


voting Commission member is not, or does not appear to be, for any reason, impartial to a
program that is applying to the Commission for funding, the member has a conflict of
interest." One way to help ensure this objectivity is to require selection officials to
annually certify in writing that they have no conflicts of interest."

"Although Commission staff discuss conflict of interest issues with selection officials and
distribute relevant guidance to them, Commission policies and procedures do not require
these officials to annually sign conflict of interest statements certifying that they have no
conflicts. If selection officials have conflicts of interest but do not report them, the
fairness of the selection process may be impaired."

Missing Documentation Related to Application Rejections

"The Commission was unable to provide us with requested documentation related to
application rejections because all documentation supporting application rejection
decisions and related communications to applicants were stored on a computer that
experienced a hard drive failure. As a result, if a rejected applicant questions the reason
for rejection, the Commission has no records to reference to support its decisions. In
addition, we were unable to assess for adequacy the Commission's basis for rejecting
applicants and communications to rejected applicants."

Limited Advertising of Funding Availability

"According to A Reference Manual for Commission Executive Directors and Members,
section 3.2, "the Commission is expected to widely publicize the availability of funds."
Mediums that the Commission has used to advertise funding availability at different
points during program years 1995-96 through 1998-99 include radio, television,
newspapers, magazines, newsletters, and an internet website. However, the ability of the
Commission to fully utilize all advertising mediums each year and reach all interested
parties has been limited due to its level of funding resources. As a result, all interested
parties may not be informed of funding availability, thereby eliminating certain potential
AmeriCorps programs from the selection process. For example, in 1998-99 program
year, only six organizations applied for AmeriCorps funding, as compared with 16 in
program year 1997-98 and 10 in program year 1996-97."

Recommendations

The report recommended that the Commission:
       Develop an objective, standardized method of communicating the results of the
       Commission's evaluation of previously funded applicants. This method should
       ensure that the same type of information is communicated for each applicant. The
       Commission should also consider providing this information in writing to ensure
       consistency of content and availability of the information to the selection officials
       while they are making their funding determinations.
                                                                                  Exhibit L

         Include in its subgrantee selection procedures an evaluation of the adequacy of the
         applicant's financial systems to ensure applicants have systems in place to
         properly account for grant funds and comply with related grant requirements.
         Develop and implement procedures that require selection officials to sign conflict
         of interest statements annually after discussion of related issues with Commission
         staff and review of written guidance provided.
         Develop and implement procedures to periodically backup its computerized files.
         Direct additional funding to its advertising efforts if additional funding becomes
         available to the Commission. In addition, the Commission should explore
         opportunities for free advertising that various media may provide to not-for-profit
         organizations.

Status

The Commission implemented a process of site monitoring and reporting, which includes
using a site visit report and an annual evaluation "report card" for subgrantees submitting
renewal application packets. These site visit reports and annual report cards are
distributed to all the selection officials. The categories and attributes listed on the report
card and site visit report are consistent for each subgrantee. Therefore, it is more likely
that the information disseminated to the selection officials over each subgrantee will be
comparable. These report cards were utilized beginning in program year 2000, as the Job
Training Council and Volunteer NH! transition occurred. Report cards were not
completed for new applicants accepted in 2000 because the programs would only have
been running for about 4 months before the renewal applications for the 2001 program
year were due (in February 2000).

The Commission is currently in the process of developing procedures to formally
evaluate the adequacy of the applicants' financial management systems. However, as of
the end of our fieldwork, controls have not been developed or implemented.

The Commission began requiring its staff, Board Members, and peer evaluators to sign
conflict of interest statements for the 2001 program year. In addition to signing the
statement, the signor must identify hisfher affiliation with the entity as well as hislher
affiliation with any other entities that may be considered a conflict of interest.

The Commission remains unable to recover documentation related to any application
rejections before 2000 as a result of the hard drive failure identified during the pre-audit
survey. The Commission was able to recover some of the requested correspondence
following the rejection letter. However, the Commission was able to produce requested
documentation relating to 2001 application rejections.

Changes were not made in the Commission's level of funding resources committed to
advertising through the Job Training Council's existence. However, under Volunteer
NH!, it appears that funds.were adequately used for advertising, which resulted in an
increase in program applications.
                                                                               Exhibit L

Administering Grant Funds

Lack of Evidence of FSR Review, Including Matching Recalculation

"Commission procedures require that subgrantee FSRs be reviewed upon receipt and that
matching requirements be recalculated at that time. However, prior to the third quarter of
program year 1998-99, no evidence existed to document that this review was performed.
In addition, procedures are not in place requiring Commission personnel to compare the
FSRs to the subgrantees' accounting systems or other supporting documentation during
site visits to ensure proper reporting of costs."

Timeliness of Receipt of FSRs, Invoices and Progress Reports

"The Commission does not routinely date-stamp FSRs, invoices and progress reports
from subgrantees as they are received. The receptionist at the Commission's front desk
does not date-stamp all mail received from the subgrantees. Also, on occasion, the
Program Officer receives documents by hand from the subgrantees during site visits
where the date-stamp is not available for use. Therefore, the Commission can not
routinely verify if these documents are submitted timely in compliance with the grant
agreement. As a result, subgrantee FSRs may be submitted late."

Recommendations

The report recommended that the Commission:
       Continue implementation of developed procedures to review subgrantee FSRs,
       recalculate matching requirements and formally document what review
       procedures were performed.
       Include in its site visit monitoring tool procedures to agree the subgrantees' FSRs
       to the subgrantees' accounting systems or other supporting documentation for
       accuracy and allowability.

Status:

The Commission has developed and implemented adequate procedures to determine
whether the subgrantees' FSRs are recalculated to ensure all matching requirements are
met. However, the Commission has not developed or implemented procedures that
require Commission personnel to compare the subgrantees' FSRs to the subgrantees'
accounting systems or other supporting documentation during the site visits to ensure
proper reporting of costs.

Evaluating and Monitoring Subgrantees

Review of Subgrantees' Financial Systems, AmeriCorps Member Timesheets, and
Expense Documentation during Site Visits
                                                                                   Exhibit L

"There is no evidence to indicate Commission personnel review the subgrantees'
financial systems, AmeriCorps Member timesheets, and expense documentation during
site visits. As a result, control weaknesses or instances of material noncompliance related
to the subgrantees' financial systems, the reporting of AmeriCorps Member hours, and
the propriety of expense documentation, of which the Commission is not aware, may
exist."

Review for Prohibited Activities

"The Commission has no formal procedures in place to determine, on a periodic basis
throughout the grant period, if AmeriCorps Members are performing prohibited activities.
The Commission's site visit monitoring tool only requires monitors to document the
existence of subgrantee policies to prevent prohibited activities. However, the
monitoring tool does not include suggested procedures for visits to program sites or
interviews of AmeriCorps Members (on a spot check basis) to identify any potential
prohibited activities. Without specific procedures in place to determine if AmeriCorps
Members are performing prohibited activities, such prohibited activities could exist and
remain undetected, causing noncompliance. The inclusion of procedures, in the
monitoring tool, to check for prohibited activities as a part of the site visit, would provide
reasonable assurance that they were performed and documented consistently during each
site visit."

Review of Member Living Allowances and Hours Accumulation

"The Commission does not have formal procedures in place to determine whether
AmeriCorps Members' living allowances are being paid according to established
guidelines. Also, the Commission does not specifically review the nature of the hours
accumulated by AmeriCorps Members, to determine whether they represent activities
which meet the educational, human, environmental, and public safety needs specified in
the Act which established the AmeriCorps program. Instructions for the performance of
such a review is not incorporated into the site monitoring tool. As a result, instances of
material noncompliance related to the AmeriCorps program of which the Commission is
not aware may exist and may not be detected or corrected."

Review of OMB Circular A-133 Reports or Other Audit Reports from Subgrantees

"OMB Circular A- 133 Compliance Supplement, April 1999, Part 6 - Internal Control
suggests that review of and follow-up on subgrantees' audit reports is a key component of
a program to monitor subgrantees' compliance with federal grant requirements.
However, as part of the Commission's monitoring process, the Commission does not
require its subgrantees to submit OMB Circular A-133 or other audit reports. Therefore,
the Commission does not routinely review these reports to determine if auditors have
identified control weaknesses or instances of noncompliance related to the AmeriCorps
program. As a result, control weaknesses or instances of material noncompliance related
to the AmeriCorps program of which the Commission is not aware may exist and may
not be detected or corrected."
                                                                               Exhibit L


Written Policies and Procedures Related to Follow-up on Deficiencies Noted at
Subgrantees

"The Commission does not have written policies and procedures to ensure that
subgrantees correct deficiencies that are identified by the Commission. As a result, the
Commission may not properly or timely ensure the correction of noted subgrantee
deficiencies. However, for the two subgrantees tested in program year 1998-99, we noted
that recommendations provided in the first site visit report were addressed in the second
site visit report."

Schedule of Planned and Actual Site Visit Dates

"The Commission does not maintain a schedule of planned and actual dates for site visits
for each program year. Without documentation of when site visits will occur and have
occurred, the Commission could overlook a particular site visit or not perform site visits
timely."

Recommendations

The report recommended that the Commission:
       Develop and implement procedures to review the subgrantees' financial systems
       during site visits. Document the results of specific AmeriCorps Members'
       timesheets and expense documentation performed during site visits.
       Develop formal procedures, such as visits to randomly selected program sites and
       interviews of AmeriCorps Members, to determine whether any prohibited
       activities are being performed. These procedures should be carried out during
       each subgrantee site visit and should be specifically incorporated into the
       Commission's monitoring tool.
       Establish specific sections in its site visit monitoring tool to determine and
       document whether (1) AmeriCorps Members' living allowances are being paid
       according to established guidelines and (2) hours accumulated by AmeriCorps
       Members represent activities permitted under the Act.
       Require its subgrantees to submit OMB Circular A-133 or other audit reports once
       the final reports are issued. The Commission should review these reports,
       determine if corrective action relevant to the AmeriCorps grant is needed, and
       develop procedures to ensure necessary corrective action occurs timely and
       adequately addresses the issues.
       Develop and implement written policies and procedures to ensure that adequate
       corrective actions are taken when deficiencies are noted by the Commission.
       Maintain a clear, concise schedule of site visits to be preformed during each
       program year, and a record of when site visits are performed. A person other than
       the employee responsible for performing site visits should periodically review this
       schedule to ensure. the schedule is complete and that site visits are being
       performed timely and according to Commission policy.
                                                                               Exhibit L

Status:

The Commission's documentation of reviews of the subgrantees' financial systems is on
a very summarized level with no supporting details for report conclusions. The
Commission's report documents that member file reviews, timesheet reviews, and
expense documentation reviews were performed. However, the site visits reports used to
document such reviews do not include sufficient documentation to determine (1) what
member files were reviewed, (2) how many timesheets were reviewed, and (3) what
expenses were reviewed. The Commission should include this information as an audit
trail in each site visit report.

The Commission's site visit files contain evidence that prohibited activity inquiries are
being performed. Specifically, the files contained evidence of interviews with members,
host sites, and program directors regarding prohibited activities.

The Commission still does not have formal procedures in place to determine whether
AmeriCorps Members' living allowances are being paid according to established
guidelines. The Commission's site visit files document the review of member hours,
member timesheets and interviews with members to determine whether their time was
properly spent on AmeriCorps activities. However, the Commission's site monitoring
tools do not specifically mention the procedures used to determine whether AmeriCorps
Members' living allowances are being paid according to established guidelines. The
Commission should include such procedures in the entity's site monitoring tools and
maintain documentation of the review in the site monitoring files.

The Commission is currently developing plans for comprehensive reviews of and follow-
up of findings reflected in A-133 reports. However, currently, the Commission's review
of A-133 reports does not ensure that the entity is following-up on findings that are
identified during the A-133 audits. The Commission should develop and implement
processes to ensure that all findings related to the A-133 or other audits are followed-up
on and the appropriate corrective action is taken.

The Commission's AmeriCorps Program Policies have been enhanced to deal with
elements of noncompliance of its subgrantees.

The Commission currently maintains a schedule of planned and actual dates for site visits
for each program year.
                                                                                                             Appendix A


                                                          117 Pleasant St. Dolloff Bldg. 4th Floor Concord, NH 03301
                         @          NHT                      1-800-780-8058 (603) 271-7200 Fax (603) 271-7203
                                                                             www.volunteernh.org


Chair                               July 22,2002
Peter Bender
Pegasus Foundation

Vice Chair
Kathy Moulis
                                    Mr. Terry Bathen
Department of Education             Acting Inspector General
Treasurer
                                    Corporation for National and Community Service
Susette Costes                      1201 New York Avenue, NW
Citizens Bank
                                    Washington, D.C. 20525
Secretary
Marianne Fortescue
UNH Partnership for Social Action
                                    Dear Terry,
                                                                          In re: OIG Audit Re~ortNumber 02-20
Sue Conner
Southern NH Services

James Milliken
                                    Our Governor's Office received the draft version of the Incurred Cost Audit of Grants
James K Milliken Associates         of the New Hampshire Commission For National and Community Service and
Katya Maiser
                                    Volunteer NH!. This letter is our response to what we believe to be the Volunteer
Lin- Wood Chamber of Commerce       NH! portion of the audit. The Governor's Office is handling the New Hampshire Job
Deborah Emery-Gigliotti
                                    Training Council's portion.
American Cancer Society

Virginia Irwin                      The audit, two days prior to the auditors arriving, was officially changed in scope to
NH Department o f Education         include Volunteer NH! and its subgrantees. Despite this last minute change we did
Joe Riley                           our best, with a very small staff, to accommodate the auditors in their efforts on your
Community Repersentafive            office's behalf. While only $40,093 was questioned Ii-om the administrative side,
Cynthia Billings                    $35,639 of which is dependent on NH Job Training Council back-up, we do not
Plus Time NH                        believe the report gives a fair representation of our operations. In addition, we do not
Colleen Franco                      agree with many of the findings related to our subgrantees and will be working with
Student                             the Corporation for National Service on the questioned costs identified there.
Gayle Braley
Orr & Reno PA                       We appreciate the recommendations made regarding Volunteer NH! 's administrative
Andy Peterson                       operations and have already implemented those which could quickly be accomplished
Peterson Real-Estate                with Board approval. We were also pleased to have made appropriate corrections to
David Lamarre-Vincent               issues we discovered before the auditors arrived and to learn that the issues we
NH Council of Churches
                                    originally identified were also identified by the auditors. Our ability to police
Chuck Slayton                       ourselves will greatly improve the results of future audits.
Second Start

Kristyn McLeod                      Please feel fiee to contact me if you need additional information at (603) 271-7202.
Governor i Ofice

Shireen Tilley                      Sincerely,
Corporation for
National Service

Alexis Walker
Executive Director                  Alexis Walker
                                    Executive Director
State Stewards
The Timberland Company
Tyco International Ltd.
                               STATE OF NEW HAMPSHRW                                      Appendix B
                                         OFFICE OF THE COVERNOR




JEANNE SHAHEEN
  GOVERNOR




                                                                  July 19,2002




          Terry E. Bathen, Esquire
          Acting Inspector General
          Office of Inspector General
          1201 New York Avenue, NW
          Washington, DC 20525

          Dear Mr. Bathen:

                                                 In re: OIG Aodit Report Number 02-20

                 Thank you very much for extending to New Hampshire an opportunity to
          comment on the draft audit of the New Hampshire Commission on National and
          Community Service. Thanks as well for your prompt and courteous responses to my
          phone calls and e-mails. As discussed, we will work with the Corporation to resolve the
          questioned costs and implement policies and procedures as necessary to address the
          concerns raised in the audit. We are confident that we will be able to provide adequate
          documentation and backup during the resolution process to substantiate all questioned
          expenditures and demonstrate that adequate internal controls, grants and program
          management, financial management and reporting were in place during the audit period.

                  New Hampshire would, however, like to provide some general response to the
          draft audit. The New Hampshire Job Training Council, Inc., which served as fiscal agent
          for Corporation funds until August 2000, ceased to exist in December 2000, because its
          primary function, job training, had been assumed by the New Hampshire Workforce
          Opportunity Council, Inc. Sherry Turgeon, the former Deputy Executive Director for the
          New Hampshire Job Training Council, was retained by the Workforce Opportunity
          Council as a consultant through October 2001 and addressed any remaining questions
          about Job Training Council activities during that time period.

                 It was unfortunate that the KPMG audit work was not done as originally
          scheduled in the fall of 2001'when Ms. Turgeon was available to assist in finding and
          providing information and documentation. We n6w fihd ourselves in the             of




                                  STATE HOUSE, CONCORD, NH 03301 (603) 271-2121
                                          TDD Aaeu:Relay NH 1800-735-2964
                                                                     Appendix B, Continued




providing information and documentation. We now find ourselves in the position of
having to respond "after the fact," but fortunately, as you know, we have been able to
retain Ms. Turgeon as a consultant to help us resolve the questioned costs with the
Corporation.

        We are somewhat disappointed that there was no recognition of improvements
made by the New Hampshire Commission in its oversight role during the audit period.
In October 1999, a Pre-Audit Survey was done by KPMG (see OIG Audit Report
Number 00-19). Despite challenges in raising matching administrative funds and
understaffing, the New Hampshire Commission has responded to all the oversight issues
raised at that time. It would have been encouraging to be recognized for that effort.


        New Hampshire takes very seriously its responsibility to oversee and expend
federal funds in a responsible manner. In the audit resolution process, we expect to
provide Expense Reports vs. Grant Awards, back-up General Ledger information, copies
of accounting and administrative procedures, payroll information for staff and members,
and other information as necessary to support expenditures. We have already been in
touch with the Corporation to be sure that members of the audit resolution team can be in
New Hampshire in September to review the information we have prepared.

        We will work as well with our sub-grantees and Volunteer NH!, which has been
the recipient for Corporation funds since September, during the resolution process to
address all the audit findings. Many of the sub-grantees are small, but they run good
programs. The fact that they may not have sophisticated computerized accounting and
tracking systems should not preclude them from running their programs provided their
systems are able to adequately track Corporation expenditures.

      Our goal during the resolution process is to provide adequate information and
documentation so there are few, if any, questioned costs. We also are striving for
complete resolution by the end of 2002. Again, thank you for your time.




                                                                    to the Governor

cc: Sherry Turgeon
    Alexis Walker
                                                                                                                Appendix C
                                                           CORPORATION

                                                           FOR NATIONAL
                                                                   AND   -
                                                           COMMUNITY




 To:                  Terry E. Bathen, Acting Inspector Genera

 Through:             William Anderson, Deputy Chief Finan

 From:                Peg Rosenbeny, Director of Grants M
                      Peter Heinaru, Director, AmeriCorps S
                                                                                           I
 Date:                July 19,2002                                                                W

 Subj:                Response to OIG Draft Audit Report 02-20: Incurred Cost Audit of Grants
                      Awarded to the New Hampshire Commission for National and Community
                      Service


 We have reviewed the draft audit report of the grants to the New Hampshire Commission for
 National and Community Service. Due to the limited timeframe for response, we have not
 analyzed documentition provided by the New Hampshire Commission supporting the questioned
 costs nor reviewed the audit work papers. We will respond to all findings and recommendations
 when the audit is issued and we have reviewed the findings in detail.

 As indicated in the audit report, most of the records required to conduct the audit from 1997
 through 2000 were not available because three different organizations administered the grants to
 the state over the period of the awards. The current organization did not have the records from
 earlier administrative entities. However, a staff member from the former organization is now
 collecting the records and will be working with the Corporation during the resolution process to
 prepare schedules of expenditures. The Corporation must then review the scheduled and
 supporting documentation in order to resolve the audit.




                                      R
                                      v
                                      p               OFFICE OF THE
                                                   lNSPECTOR GENERAL


                                                                       C.1
                                                                                 I




NATIONAL SERVICE: GETTING THINGS DONE                                        1201 New York Avenue, N.W. Washington, DC 20525
AmeriCorps Learn and Serve America National Senior Service Corps             telephone: (202) 606-5WO. website: m.nalio&erier.org
